<html>
<title> - A REVIEW OF THE NASA. FISCAL YEAR 2020 BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          A REVIEW OF THE NASA
                    FISCAL YEAR 2020 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

                           Serial No. 116-10

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-788 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                        
                        
                        C  O  N  T  E  N  T  S

                             April 2, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    11

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

Written statement by Representative Kendra Horn, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    18

                                Witness:

Mr. James F. Bridenstine, Administrator, NASA
    Oral Statement...............................................    20
    Written Statement............................................    23

Discussion.......................................................    38

             Appendix I: Answers to Post-Hearing Questions

Mr. James F. Bridenstine, Administrator, NASA....................    86

            Appendix II: Additional Material for the Record

Additional responses submitted by Mr. James F. Bridenstine, 
  Administrator, NASA............................................   148

 
                          A REVIEW OF THE NASA.
                    FISCAL YEAR 2020 BUDGET REQUEST

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10 a.m., in room 
2318 of the Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. The hearing will come to order. And 
without objection, the Chair is authorized to declare a recess 
at any time.
    I know there are many hearings going on, so hopefully we 
will gain more people as the time passes.
    Let me welcome Administrator Bridenstine, and we have a lot 
to cover at today's hearing, so I will come right to the point.
    You have stated that NASA's (National Aeronautics and Space 
Administration's) Fiscal Year 2020 budget request is a good 
one, apparently in part because the President didn't cut your 
budget as much as he is proposing to cut the rest of America's 
Federal R&D (research and development) investments, and we 
consider rather misguided and harmful cuts to DOE (Department 
of Energy) and NSF's (National Science Foundation's) research 
budgets, so I'm really not that persuaded. In fact, I find both 
the NASA budget request and your written testimony for today's 
hearing to be a little disappointing.
    The President's budget request for Fiscal Year 2020 
proposes the same ill-advised cuts to important NASA science 
and education initiatives that it did last year, cuts which 
Congress has already considered and rejected in Fiscal Year 
2019 Appropriations Act. Eliminating NASA's key STEM (science, 
technology, engineering, and mathematics) activities--the MUREP 
(Minority University Research and Education Project), Space 
Grant, and EPSCoR (Established Program to Stimulate Competitive 
Research), the highest-ranking astrophysics decadal priority 
the WFIRST (Wide Field Infrared Survey Telescope), and two 
critical Earth science missions PACE (Plankton, Aerosol, Cloud, 
Ocean Ecosystem) and CLARREO (Climate Absolute Radiance and 
Refractivity Observatory)--made no sense last year and we think 
it doesn't make any sense this year. I have little doubt these 
cuts will be rejected by the Congress again.
    Yet it is in the area of human space flight, which accounts 
for half of NASA's budget, that I find your written testimony 
most troubling and nonresponsive. Relying on that testimony, I 
would have no idea that Vice President Pence, presumably 
speaking for the President, last week directed NASA to 
undertake a crash program to put astronauts on the moon within 
5 years ``by any means necessary,'' to quote the Vice 
President.
    And what is the most justification for this crash program? 
To quote the Vice President again, it is because ``we are in a 
space race today, just as we were in the 1960s, and the stakes 
are even higher.'' Moreover, according to the Vice President, 
the Chinese have ``revealed their ambition to seize the lunar 
strategic high ground,'' whatever that means.
    The simple truth is is that we are not in a space race to 
get to the moon. We won that race a half-century ago, as this 
year's commemoration of Apollo 11 makes clear. And using 
outdated cold war rhetoric about the adversary seizing the 
lunar strategic high ground only begs the question of why, if 
that is the Vice President's fear, the Department of Defense--
with its more than $700 billion budget request--doesn't seem to 
share that fear and isn't tasked with preventing it from coming 
to pass.
    However, rhetoric isn't the same as a credible plan, and 
this Committee needs to see if there is any substance to this 
crash program. The Vice President's directive to NASA came just 
2 weeks after the Trump Administration submitted its NASA 
budget request to Congress. Moreover, it is to be completed 
within the same 5-year budget horizon that is contained in the 
President's Fiscal Year 2020 budget request.
    Given the absence of an urgent crisis, it would be the 
height of irresponsibility for the Vice President of the United 
States to direct NASA to land astronauts on the moon within the 
next 5 years without knowing what it will cost, how achievable 
the schedule is, and how it would impact NASA's other programs. 
I expect, Mr. Administrator, for you to provide us this 
information today before this Committee, as I assume you 
provided to the White House on each of those questions in 
advance of the Vice President's speech.
    The Committee needs to know how much money will be needed 
in each of the next 5 years to carry out the crash program. We 
need to know how much--if any--money the President proposes to 
add to NASA's budget over the next 5 years and the extent to 
which NASA's other programs will be cannibalized or cut to fund 
this initiative. We need to know if our international partners 
will be part of it or simply frozen out, as some of the 
rhetoric would seem to suggest. We need to know if the 
International Space Station will have to be shut down within 
the next few years to free up funding for the lunar crash 
program. In short, we need specifics, not rhetoric because 
rhetoric that is not backed by a concrete plan and believable 
cost estimates is just hot air. And hot air might be helpful in 
ballooning, but it won't get us to the moon or Mars.
    Mr. Bridenstine, I, like many of my colleagues on this 
Committee, strongly support NASA, and we want our Nation to 
achieve challenging exploration goals like landing humans on 
Mars. If the moon is a useful and necessary waypoint on the way 
to Mars, then I believe Congress will support a sustainable 
exploration program that includes the moon. But NASA has to 
date provided no meaningful roadmap to Mars, despite 
congressional direction to do so.
    And if you're not able to provide us with credible 
specifics at today's hearing, I think a great disservice is 
being done to the hardworking and dedicated men and women of 
NASA. They need programs and funding plans that are sustainable 
and inspiring, not a constantly shifting set of directives. I 
can assure you that this Committee will do its part to ensure 
that NASA can continue to be the inspiring leader in space 
exploration, science and technology, and aeronautics that it 
has been for the past 6 decades, and this hearing is just our 
first step.
    So I thank you for being here. I know you've read many of 
the news clippings that we have read questioning what the plan 
really is for NASA, and I hope that we can get some answers.
    [The prepared statement of Chairwoman Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. If there are Members who wish to submit 
additional opening statements, you may do so later, but I now 
recognize Mr. Lucas for his opening remarks.
    Mr. Lucas. Thank you, Madam Chairman.
    Our Nation's space program is a source of pride. It 
exemplifies the greatest aspects of our country: The pursuit of 
knowledge, heroism, technical excellence, perseverance, and the 
intrepid spirit to chart a course into the unknown. Exploration 
is in our DNA, and no other nation embraces that gift more than 
the United States.
    The Trump Administration has harnessed our spirit of 
exploration and proposed to focus our efforts to pioneer space. 
By maintaining consistency for major programs like the Space 
Launch System (SLS), Orion, and Commercial Crew, the 
Administration is ensuring that our national goals to explore 
the moon, Mars, and beyond will be achieved rather than 
delayed. This consistency of purpose has also been demonstrated 
in this Administration's funding request.
    At first glance, the President's FY2020 budget request 
appears to propose a reduction from the FY2019 enacted 
appropriation. However, that does not tell the whole story. 
Year after year, the Trump Administration has proposed 
increased funding for NASA only to have Congress appropriate 
even more than requested. For context, the current request 
calls for more than $21 billion, while the previous 
Administrations proposed a notional, nominal budget of just 
under $20 billion for FY2020. This Administration has added 
over $1 billion to NASA's budget request, and that's before 
Congress appropriates final funding.
    This is a blessing and a curse. As many watching this 
hearing have heard before, ``no bucks, no Buck Rogers.'' You 
have to remember the comic strip to appreciate that, but 
believe me. NASA is getting the bucks; now it's time to 
deliver. Too often programs become complacent when funding is 
taken for granted. Congress and NASA need to work to be good 
stewards of the taxpayers' dollars. We need to ensure these 
programs stay on schedule and within cost. Congress, along with 
the reconstituted National Space Council, led by Vice President 
Pence, provide this oversight.
    Last year, the Space Council directed NASA to study efforts 
to fly crew on the first SLS mission. More recently, they 
reviewed ways to accelerate the Exploration Mission 1. Last 
week, the Space Council met to review the current status of our 
exploration program. The Vice President challenged the Nation 
to return astronauts to the moon by 2024. The current budget 
request that we are evaluating today does not enable that goal. 
I look forward to NASA updating their request so this Committee 
can review those details.
    Aside from the budgetary unknowns, we do have a robust 
proposal on how we can achieve lunar exploration by 2024. The 
proposal focuses on the development of technologies that enable 
future exploration rather than dead-end, one-off technologies. 
The goal of once again launching American astronauts on an 
American rocket from American soil is fully enabled by this 
proposal.
    The budget request plants the seeds for technologies that 
will be necessary in the future like landers, habitats, and in-
space propulsion. It also proposes exciting new programs like 
the Mars Sample Return mission. Science funding in this budget 
is nearly $680 million more than NASA planned for FY2020 under 
President Obama's last request. This additional funding 
maintains support for the Europa Clipper mission, the Mars 2020 
Rover, and the James Webb Space Telescope. It also supports 
Earth science and heliophysics priorities from the National 
Academies of Science and the foundational research and analysis 
work that forms the backbone of our space science enterprise.
    Aeronautics funding under the proposal is robust as well. 
It supports the demonstration of low-boom supersonic 
technologies that will hopefully inform regulatory relief of 
supersonic flight over land. It also addresses hypersonics that 
are critical to our national security, technologies that will 
enable the air traffic management and allow the safe adoption 
of uncrewed aviation systems.
    Importantly, the budget request is also responsible. It 
attempts to reign in programs that bust their budget and defers 
the start of programs until they can demonstrate realistic 
cost, schedule, and performance metrics. The request funds the 
maintenance, operation, and facilities necessary to enable our 
space program. All too often these enabling functions are 
ignored, but we shortchange these obligations at our own peril. 
Thankfully, this request recognizes the role that safety, 
security, and mission services serves to facilitate space 
exploration, advance science, and protect lives and sensitive 
information.
    Mr. Administrator, thank you for your appearance, today. I 
very much look forward to your testimony.
    I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you. Thank you, Mr. Lucas.
    [The prepared statement of Ms. Horn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. At this time I will introduce our 
witness. James Frederick Bridenstine was sworn in as NASA's 
13th Administrator on April 23, 2018. Prior to his nomination, 
he served as a Representative for Oklahoma's First 
Congressional District in the House of Representatives, and 
during his time in Congress, he served on the Armed Services 
Committee and right here on the Science, Space, and Technology 
Committee, as many of you well know. We are delighted to have 
the Administrator back before us today, and we look forward to 
his testimony on the Fiscal Year 2020 NASA budget request.
    He has a history in the space and aeronautics field. He 
began his career in the U.S. Navy flying combat missions in 
Iraq and Afghanistan. After transitioning to the U.S. Navy 
Reserve, he returned to Oklahoma where he became the Executive 
Director of the Tulsa Air and Space Museum and Planetarium.
    He has completed a triple major at Rice University, which 
is in Texas, and earned his MBA at Cornell.
    As our witness should know, you will have 5 minutes for 
your spoken testimony, but your written testimony will be 
included in the record for the hearing. And when you have 
completed your spoken testimony, we will begin a round of 
questions. Each Member will have 5 minutes to question the 
panel. Mr. Bridenstine.

               TESTIMONY OF JAMES F. BRIDENSTINE,

                      ADMINISTRATOR, NASA

    Mr. Bridenstine. Thank you, Chairwoman Johnson and Ranking 
Member Lucas. It is an honor to be back in the Science 
Committee this time representing 17,000 of our country's finest 
employees at NASA. I understand, as the Chairwoman identified, 
that things are shifting. I will tell you that we submitted the 
budget request about 3 weeks ago now, and in that budget 
request there's a very new direction for our country.
    The President has issued now Space Policy Directive-1. He 
says that we should go back to the moon. I like to say we 
should go forward to the moon because the way we're going to do 
it under Space Policy Directive 1 is unlike anything that's 
ever been done before. We're not going to the moon to leave 
flags and footprints and then not go back for another 50 years. 
This time we go, the President has said he wants to go 
sustainably. In other words, this time when we go, we're going 
to stay. But he says we're going to go to the moon, we're going 
to go with international partners, we're going to build a 
coalition of international partners to go sustainably to the 
moon, we're going to go with commercial partners. We're going 
to utilize the resources of the moon, in other words, the 
hundreds of millions of tons of water ice that have been 
discovered in the last 10 years, and then we're going to retire 
risk. We're going to prove technology, and we're going to take 
all of that for a mission to Mars. So that is what is on the 
agenda here.
    I will tell you the first step in achieving that is 
continuing to advance the commercialization of low-Earth orbit, 
and we have now seen commercial resupply of the International 
Space Station prove to be very successful, and we are in the 
midst of watching commercial crew continue to show 
advancements, which has been very exciting. I think many of you 
in this room saw the Crew Dragon docked to the International 
Space Station just a few short weeks ago.
    Eventually, by the end of this year, we will be launching 
American astronauts on American rockets from American soil to 
the International Space Station for the first time since the 
retirement of the space shuttles in 2011, so that is a very 
exciting thing that we are looking forward to. But that's 
commercial crew. We've already completed commercial resupply 
capabilities and eventually want to get to commercialization of 
human habitats in low-Earth orbit.
    All of this for the point of this: We think it's 
important--and I know this Committee has doubled down on this 
importance--NASA should be one customer of many customers in a 
robust commercial marketplace in low-Earth orbit. That includes 
launch, it includes habitation, and we want to have numerous 
suppliers that are competing on cost and innovation in low-
Earth orbit. The reason for this is to drive down cost and 
increase access and then utilize the resources that have been 
given to us by this body to go to the moon sustainably with our 
international partners and our commercial partners to do things 
that only government can do. That's what NASA should be doing. 
And we look forward to advancing that agenda. In this 
particular budget, these agenda items are embedded in this 
budget.
    I don't want to dismiss, though, how important the rest of 
what NASA does is. Right now, we have the Parker Solar Probe in 
orbit around the sun, in fact flying through the solar corona 
helping us better understand solar flares and corona mass 
ejections. We have of course dozens of satellites orbiting the 
Earth, sensing the Earth in every part of the electromagnetic 
spectrum, and those satellites are helping us better understand 
the climate and helping us in fact increase crop yields for a 
day when we can feed more of the world than ever before.
    At the same time we're continuing planetary missions, and 
as a matter of fact in the last I guess 5 months now we landed 
InSight on Mars, which was an exciting day for the United 
States of America. In this budget you'll find that Mars 2020 is 
well-funded. You also find that there's funding for a Mars 
sample return. Mars 2020 is going to cache samples, and then 
after Mars 2020 we're actually going to bring samples back to 
Earth. It's important for this country to focus on finding life 
on another world.
    I'm looking at my good friend Ed Perlmutter with his 2033 
bumper sticker. It's a little distracting, Congressman, but 
I'll continue.
    So planetary science is important. Of course astrophysics 
is important. We're focused like a laser right now on the James 
Webb Space Telescope, which is a big mission. It will make the 
United States the leader in astrophysics for the next 30 years. 
That's how important this mission is.
    The budget is strong on aeronautics. We're on the brink of 
demonstrating the capability to fly across the United States at 
supersonic speeds without the sonic crack that can be so 
disruptive to infrastructure and people on the ground. So all 
of these missions are funded in this budget. We're proud of it.
    It is absolutely true, Chairwoman, that the budget was 
focused on a 2028 moon landing. We have now gotten other 
direction from the President to go in 2024, and we are moving 
rapidly to get you the details that you need so that we can, in 
a bipartisan way--and I've committed to you, Chairwoman, and 
I'm committing to you now in a bipartisan way we want to be 
able to achieve that objective.
    With that, I'll yield back.
    [The prepared statement of Mr. Bridenstine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much.
    At this point we will begin our first round of questions, 
and I yield 5 minutes to myself.
    We appreciate all that you have brought to NASA and 
appreciate you being here this morning.
    Two weeks ago, 2 weeks after the Administrator released the 
Fiscal Year 2020 budget request, Vice President Pence announced 
that the United States would send Americans to land on the moon 
in 2024, 4 years earlier than the 2028 goal included in Fiscal 
Year 2020 request. What is the justification for this crash 
program? What will it cost, and how achievable is this 
accelerated schedule?
    Mr. Bridenstine. I think it's important for the Nation to 
continue advancing our progress and for us, as leaders of this 
country, to demonstrate a continued advancement. And I think 
that's ultimately the objective here.
    I know I just saw Ed Perlmutter put up, Chairwoman, the 
2033 bumper sticker. We want to achieve a Mars landing in 2033. 
In order to do that, we have to accelerate other parts of the 
program. The moon is a big piece of that. By moving up the moon 
landing 4 years we can in fact--and I know you've probably seen 
the STPI (Science and Technology Policy Institute) report at 
this point, which was called for by this Committee--we can move 
up the Mars landing by moving up the moon landing. The moon is 
the proving ground.
    Like I said, if--we have to be able to utilize the 
resources of another world, and on the moon we now know that 
there's hundreds of millions of tons of water ice. Water ice 
represents air to breathe, it represents water to drink, it 
represents fuel, liquid oxygen. Liquid hydrogen is the same 
fuel that powered the space shuttles. It's the same fuel that 
will power the SLS rocket. So we need to utilize those 
resources.
    Remember, when we go to Mars, when we go to Mars we're 
going to be there for at least 2 years. Why? Because Earth and 
Mars are on the same side of the sun once every 26 months, so 
we need to learn how to live and work in another world. The 
moon is the best place to prove those capabilities and 
technologies. The sooner we can achieve that objective, the 
sooner we can move on to Mars. And that's ultimately our 
objective here.
    Chairwoman Johnson. When were you first told that the Vice 
President was going to direct NASA to land astronauts on the 
moon in 5 years? And were you informed before the Fiscal Year 
2020 budget release or did he ask for you to provide him 
information on the analysis regarding the crash programs and 
the costs and the feasibility prior to his speech?
    Mr. Bridenstine. So the Vice President and I had had 
conversations about accelerating the path to the moon, and we 
had had conversations about what that might look like, what is 
feasible, how is it possible, and then ahead of his 
announcement, yes, he had told me that he was intending to make 
that announcement, and he was--wanted to make sure that that 
was within the realm of possibility. And of course I told him 
that I believed it was. Of course I talked to folks at NASA. 
And at the end of the day, that's the new direction that we 
have, and I believe that this is a great opportunity for this 
agency. I think it's a great opportunity for the country. And I 
think we can move out on it and achieve it.
    Chairwoman Johnson. Thank you. Now, how much funding will 
be needed in each of the next 5 years to meet the Vice 
President's 2024 directive?
    Mr. Bridenstine. So that goes to an amendment to our budget 
request, which we are working on right now to achieve. The 
elements of getting to the moon in 2028 are all present, so we 
know we need to accelerate SLS and the Orion crew vehicle with 
the European Service Module. We need to accelerate the Gateway, 
the power and propulsion element, the habitation module in 
orbit around the moon, and then we need to accelerate a landing 
capability, which would include a transfer vehicle from the 
Gateway to low-lunar orbit, a descent module, and an ascent 
module.
    All of those elements are on the agenda for 2028. In order 
to achieve 2024, we need to take some of those elements and 
move them forward to achieve that objective. And what we're 
working on right now at NASA, is compiling the data necessary 
to come back to this Committee, to come back to Congress and 
ask for an amendment to our budget request and attempt to win 
the buy-in of this critically important Committee and the 
United States Congress.
    Chairwoman Johnson. Thank you. And do you think you can 
achieve that by April the 15th?
    Mr. Bridenstine. I think we can get really close, yes, 
ma'am.
    Chairwoman Johnson. OK. Thank you very much. My time has 
expired. Mr. Lucas.
    Mr. Lucas. Madam Chair, before I begin my official question 
time, I'd like to ask to speak for a moment out of order and 
introduce a new Member to the Committee.
    Chairwoman Johnson. Yes.
    Mr. Lucas. Thank you, Madam Chairman. Jaime Herrera Beutler 
represents the Third District of the southwest of Washington 
State. She's done great work already on advancing STEM 
conserving important resources and driving technology progress, 
so welcome to the Committee, Jaime. You'll find this is a fun 
Committee, and that's not always the circumstances everywhere.
    Thank you, Madam Chairman.
    Chairwoman Johnson. Thank you and welcome. And when you 
mentioned STEM in any of your conversation, you get my 
attention, Mr. Lucas.
    Mr. Lucas. Well put, Madam Chair.
    Director, this FY2020 budget request for NASA is 
$21,019,000,000 and change so to speak. The Obama 
Administration's last request for FY2017 planned to request 
$19.879 billion in FY2020. How does the extra $1.14 billion 
request scheduled for this year enable exploration in science 
and aeronautics? What's the difference between the two?
    Mr. Bridenstine. So the focus now is getting humans to the 
moon as soon as possible. 2028 was based on the budget request, 
and the intent of course is to not just get humans to the 
surface of the moon but prove that we can live and work on 
another world. And that's really what the extra resources have 
been applied to.
    Mr. Lucas. Continuing down that road, the budget request 
proposes delaying continued development of the exploration 
upper stage for the Space Launch System that, along with 
advanced boosters, is necessary to meet the congressional 
directive to develop a 130-metric ton launch vehicle. Why is 
NASA delaying that effort on the capacity?
    Mr. Bridenstine. Mr. Ranking Member, what we have found is 
that the development of SLS has proven to be more challenging 
than previously anticipated, so what we have attempted to do at 
NASA is focus Boeing on getting the core stage of SLS complete, 
and then from there we can move to the exploration upper stage. 
But the key is to be able to launch American astronauts to the 
moon, and we can do that with an SLS core stage and an interim 
cryogenic propulsion stage, and then we can get to that near 
rectilinear halo orbit around the moon where we're going to 
build the Gateway.
    But the key is it--and I agree with you completely--we need 
an exploration upper stage. The key is we've got to get the SLS 
built or the exploration upper stage isn't going to be usable.
    Mr. Lucas. So we're still committed to developing the 130 
metric ton launch vehicle?
    Mr. Bridenstine. Yes, sir. In this----
    Mr. Lucas. Because if we're going to throw big things up, 
we've got to have a big capacity to do that.
    Mr. Bridenstine. Yes, sir. In this budget request the 
intent was to delay. We are--we have no intent to cancel. We're 
trying to get SLS complete so we can get humans in the vicinity 
of the moon as soon as possible.
    Mr. Lucas. Director, 2 years ago Congress passed the 
Weather Research and Forecasting Innovation Act, which I 
sponsored, and featured yourself and Ms. Bonamici as the 
original cosponsors. Title III of the act created a pilot 
program for NOAA (National Oceanic and Atmospheric 
Administration) to procure data from the private sector that 
could be integrated into the National Weather Service forecast. 
The law also directs NOAA to avoid duplication between public 
and private resources of data. The goal was to stimulate the 
private sector to provide data to protect lives and property 
and ensure U.S. leadership in weather forecasting.
    The FY2020 budget request for NASA proposes to spend 
millions of dollars on sensors aboard the European Sentinel-6 
mission to conduct Global Navigation Satellite System radio 
occultation observations to ingest into the U.S. forecast. U.S. 
companies are currently providing GPS radio occultation data to 
NOAA. This Administration and you in particular have been 
stalwart advocates for commercial space enterprise. How is NASA 
ensuring they're not competing with the private sector aside 
from the direction in the 2017 Weather Act? Current U.S. 
commercial remote-sensing policy also directs agencies to rely 
on maximum practical extent on U.S. commercial remote-sensing 
space capacities for fulfilling imagery and the needs of the 
military, intelligence, foreign policy, homeland security. How 
are we balancing that public-private?
    Mr. Bridenstine. Sir, this is a critically important issue 
that our Nation needs to be focused on. As you are aware, GPS 
radio occultation, under laws passed by this Committee and this 
Congress, have enabled us to, for the first time in history, 
use commercial GPS radio occultation data and ingest it into 
our data assimilation systems and our numerical weather models 
and in fact derive results that are meaningful. In other words, 
commercial data is no longer going to be really just a pilot 
program, but we're looking to operationalize that commercial 
data because of the work of this Committee. And for that I will 
tell you our Nation is grateful.
    As far as the operational use of GPS radio occultation data 
from our European partners, NASA is not involved in that. I 
would defer to my NOAA colleagues on how they intend to I guess 
work that issue. But know that commercial data is a critical 
piece of the mix, and I'm happy to take that and get you a more 
complete answer after talking to my NOAA colleagues.
    Mr. Lucas. We'll follow up because we certainly don't want 
to push private industry out of the spectrum, as hard as you 
and I worked to make that possible.
    Mr. Bridenstine. Yes, sir.
    Mr. Lucas. With my remaining moments, Madam Chairman, I 
have the privilege of also introducing one more new Republican 
Member of the Science Committee. Jenniffer Gonzalez-Colon 
represents Puerto Rico, which has a large R&D industry and a 
commitment to innovation and research. is also a proud graduate 
of a STEM magnet high school, and she's told me she's excited 
to work on promoting STEM education. So you have another ally, 
Madam Chairman, when it comes to STEM.
    Chairwoman Johnson. Thank you very much. They can keep on 
coming. Thank you.
    Mr. Lucas. I yield back, Madam Chairman.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you so much to the Chair and Ranking 
Member, and welcome back to the Science Committee to our former 
colleague Administrator Bridenstine.
    Mr. Bridenstine. Thank you.
    Ms. Bonamici. I appreciated our early efforts to work 
together, and thank you, Mr. Lucas, for pointing that out, and 
I hope we can continue to work together to support NASA and its 
historic mission and its workforce.
    And I understand you have many priorities to balance when 
writing the fiscal 2020 budget request. I say I'm disappointed 
to see a shift away from the multi-mission role, which seems to 
be contrary to congressional intent in recent reauthorizations 
and appropriations to restore funding to NASA's Science Mission 
Directorate. NASA has some of the very best scientists in the 
world, and as we face the consequences of climate change and 
extreme weather patterns, we should be doing everything we can 
to leverage information from Earth-observing satellites to 
strengthen our understanding of climate change and identify 
successful adaptation and mitigation strategies.
    And as the Co-Chair of the House Oceans Caucus, I'm also 
glad to welcome the new Members who have districts that are 
definitely affected by ocean health. I know that the health of 
our natural resources, specifically marine resources, is 
critical. Warming waters have been triggering harmful algal 
blooms, which cause a serious problem to marine life and human 
life and our economy as well, and investments in research to 
predict and adapt to those challenges is important.
    So I'm looking at NASA's PACE mission, the Plankton Aerosol 
Cloud and Ocean Ecosystem mission, that could help us 
understand algal blooms and their relation to other 
environmental events, for example. So that's scheduled to 
launch in 2022 and will improve NASA's satellite observations 
of ocean ecosystems and the atmosphere.
    However, Administrator Bridenstine, despite demonstrated 
value shown in the January 2018 National Academies' Earth 
Sciences Decadal Survey, the ``Thriving on Our Changing 
Planet'' survey, your budget proposes to terminate the PACE 
mission and justifies this decision by stating that existing 
and planned missions from other NASA, NOAA, and international 
partner satellite fleets are providing or will provide 
measurements to establish similar science. It's worth noting 
that the PACE mission is known for having the most advanced 
ocean color instrument in NASA's history.
    So what are the other Federal Government and international 
satellite efforts that are providing or you say will provide 
similar results? And is there a consensus from the scientific 
community that the same data products of the same quality that 
would have been in the PACE mission will be delivered from 
other missions? And did you consult with other scientific 
researchers involved with PACE before making this decision?
    Mr. Bridenstine. So that's another important question. Know 
this, Congresswoman, as of right now, PACE is funded by 
Congress, and we are moving out on it very rapidly. It is a 
good mission, and NASA believes in it, and we're working very 
hard to achieve its launch in 2022.
    It is also true that it's early in the development phase, 
and when we consider all of the things that we're balancing, 
that was one of the casualties of ultimately making decisions 
in a constrained, you know, budget environment. But it is also 
true that there are other missions that NASA has and our 
international partners have that help us characterize the color 
of water. Specific missions that, you know, I can take that for 
the record and get back to you what those instruments may be 
and on which satellites and----
    Ms. Bonamici. And did you consult with the scientific 
researchers involved in the PACE mission when making this 
decision to terminate the program?
    Mr. Bridenstine. We did. We consult with all of our 
missions when making these critically important decisions.
    Ms. Bonamici. I have another question. Last Congress, we 
passed the NASA Transition Authorization Act reaffirming the 
sense of Congress that the Administrator should set science 
priorities by following the guidance provided by the scientific 
community through the National Academies of Science Engineering 
and Medicine's Decadal Surveys. And I'm concerned that the 
proposed budget does not align with this principle, especially 
concerned about cuts to Earth science. Can you explain the lack 
of funding in your budget request to initiate missions and 
implement the most recent Earth science decadal survey? And 
based on your fiscal 2020 request, when could we expect decadal 
surveys' missions to be initiated and launched and when will 
they be funded?
    Mr. Bridenstine. Yes, ma'am. So as of right now we have the 
highest Earth science budget in the history of the United 
States, and if you look at our Earth science budget compared to 
that of all the other nations of the world, if you add up the 
European Space Agency and Canada and Japan and Russia, our 
partners on the International Space Station, collectively their 
GDPs are higher than ours, and we're about equal to spending as 
much as all of those nations combined on Earth science.
    I think our Earth science budget is very good. In fact, 
this particular Earth science budget request is higher than 
five of the budgets that were enacted under President Obama, 
which is a solid I think position to be in. And I know you and 
I have talked. My commitment is and will be to do everything 
possible to make NASA an apolitical, bipartisan organization. I 
want to drive consensus. And the way we get consensus is to 
listen to the decadal surveys from the National Academy of 
Sciences. And to the best of my ability I have done that, and 
my commitment is to continue doing that.
    Ms. Bonamici. Thank you. My time is expired. I yield back. 
Thank you.
    Chairwoman Johnson. Thank you. Mr. Posey.
    Mr. Posey. Thank you, Madam Chair and Ranking Member, for 
holding this hearing. It certainly is good to know that our 
days of reliance on others for human access to space are 
limited.
    And great to see you back here, Mr. Bridenstine, as 
Administrator.
    Mr. Bridenstine. Thank you.
    Mr. Posey. Can you provide an overview of what preparations 
are being made at Kennedy Space Center to support the first 
launch of SLS and Orion on an Exploration Mission-1 (EM-1) next 
year as we prepare to receive and process the rocket and the 
spacecraft at KSC (Kennedy Space Center)? What activities are 
taking place now to ensure that smooth stacking integration and 
rollout will all happen?
    Mr. Bridenstine. Absolutely. So at Kennedy the exploration 
ground systems are key. Of course, having a mobile launcher is 
key. Those are under development and getting very close to 
being ready. The first SLS we have had some delays with, as 
I've already explained. That's why we're so focused on it. In 
order to achieve getting that SLS to Kennedy as soon as 
possible we've made some significant changes in how we're 
actually developing it. We have found that--and we did not know 
this ahead of time. We have found that the engine section of 
the SLS is actually on the critical path because of the 
complexity that was unanticipated, and the challenges the rest 
of the SLS rocket was dependent on that section being complete 
before it could be integrated. And that was based on a property 
plant and equipment limitation that we had.
    So what do we do? We've now purchased new equipment--I 
should say new tooling so we can start integrating the oxygen 
tank or the hydrogen tank with the intertank and fairings. We 
can actually do that in the horizontal while we're continuing 
to work on the engine section, so that's accelerating the path. 
And of course once that is complete, we will do testing on the 
entire integrated vehicle through what we call a green run. 
We're making determinations right now ultimately how much of a 
green run we need to do based on the schedule that we are 
attempting to achieve.
    And I want to be clear; we're going to be very safe. We're 
not going to do anything that brings undue safety. But if there 
are things that we're testing that are nice to have and not 
necessary, then we're going to look at moving those to a later 
test.
    But at the end of the day we want to get the rocket to the 
Kennedy Space Center. We want to make sure that the launchpad 
and the mobile launcher are ready to go, and all of those are 
not in the critical path right now. I think we're in good shape 
for those activities, and I can tell you everybody at Kennedy 
is extremely excited about getting the first launch of SLS by 
2020. And that's what we're working on right now, getting it by 
the end of 2020.
    Mr. Posey. Well, thank you very much for your direct 
answer. And I appreciated your comments last week about the 
importance of the exploration upper stage for the SLS, the 
second mobile launcher----
    Mr. Bridenstine. That's right.
    Mr. Posey [continuing]. That will launch a more powerful 
rocket by Exploration Mission-3. These upgrades will allow SLS 
to launch both astronauts on Orion while also carrying the 
large payloads, lunar landers, and so forth.
    Although NASA's Fiscal Year 2020 budget process proposes 
deferring the work until several years out, it appears that, 
based on the Vice President's charge, that we accelerate the 
return and the immediate development. And your comments all 
seem to jive. And so, if so, you know, how will NASA continue 
and accelerate EUS (Exploration Upper Stage) and ML2 (Mobile 
Launcher 2) development----
    Mr. Bridenstine. Yes.
    Mr. Posey [continuing]. In FY2020?
    Mr. Bridenstine. So just so you're aware, this is an 
important issue, and you're hitting the nail on the head. Under 
the law, we are required to build the second mobile launcher. 
And what we do at NASA is we follow the law. So we are right 
now--in order to build that second mobile launcher, which is 
required by law, we are continuing to develop the exploration 
upper stage in a limited way. Like I told Ranking Member Lucas, 
we want to focus on that core stage, but in a limited way we 
need to continue development on exploration upper stage so that 
we can follow the law and build that second mobile launcher. My 
commitment, sir, is to follow the law, and we will continue 
doing that.
    But it is true that right now if we're going to accelerate 
the agenda to 2024, we're going to have to make decisions as to 
what the level of investment is going to be and make a 
modification to the budget request to achieve that agenda. And 
we look forward in the coming weeks working with OMB (Office of 
Management and Budget) and the Administration coming to you 
with a plan to achieve that, and that's--like the--or like the 
Chairwoman said--I keep going back to my old days. Like the 
Chairwoman said, we want to get that to you as soon as possible 
hopefully by April 15th.
    Mr. Posey. Thank you very much, Mr. Bridenstine, and I 
yield back.
    Chairwoman Johnson. Thank you very much. Ms. Horn.
    Ms. Horn. Thank you, Madam Chair.
    Good morning, Administrator. I want to start by saying I 
have a statement that I've submitted for the record that should 
be over there.
    I want to start off by talking--I think you made a good 
point about this is not a partisan issue, and it shouldn't be, 
but I think there are some important unanswered questions about 
how we're going to achieve the things that have been proposed 
and some clarity. So in the congressional justification for the 
FY2020 request, it states that NASA's Orion spacecraft and 
Space Launch Systems are the backbone for deep space 
exploration from which private companies could one day provide 
equivalent commercial. I think the conversation about the 
appropriate balance between government and commercial is 
critical.
    But at the Senate Committee hearing, you mentioned that you 
are considering the use of commercial vehicles to launch Orion 
on an EM-1 mission. So in your prepared statement for today's 
hearing you also said that NASA is also assessing alternative 
architectures for the EM-1 that could include the use of 
commercial launch vehicles, but at the same time on March 26 in 
a press release you were quoted as saying that, ``while some of 
these alternative vehicles could work, none was capable of 
achieving our goals in orbit around the moon for the EM-1 
within our timeline and on budget. The results of this 2-week 
study reaffirmed our commitment to SLS.''
    So I guess given these conflicting statements, can you tell 
me what the final decision was on that?
    Mr. Bridenstine. Absolutely. So the answer is the 2-week 
study is complete, and we looked at all of the commercial 
options, and we took nothing off the table. If--what is the 
realm of possibility and how do we achieve a 2020 launch with 
an Orion crew vehicle and a European Service Module? We looked 
at a Delta IV Heavy. I don't know--I don't want to take up all 
of your time, but we looked at a Delta IV Heavy. It doesn't 
have the throw-weight. With an ICPS (interim cryogenic 
propulsion stage) at the top, it gets even heavier and it still 
can't make it to Earth orbit.
    So then we said, well, what about two Delta IVs? The 
challenge there is you have--we only have one launchpad on each 
coast. If you launch from the West Coast, you have to launch 
south, which means you have to, you know, change orbits once 
you're there. A lot of Delta V, a lot of time, cryogenic boil-
off, it doesn't work. So then we said what about launching a 
Delta IV and a Falcon Heavy? What if we were to put a Crew 
Dragon on top of a Falcon and do automatic rendezvous and 
docking, which is the only capability we have right now as a 
country is that Crew Dragon to do automatic rendezvous and 
docking with the Orion? The challenge there is the Crew Dragon 
doesn't have the thrust to throw the Orion around the moon, so 
that didn't work.
    So then we looked at way out of the box--what if we were to 
consider putting a Falcon Heavy with an Orion service module or 
the Orion crew vehicle and a European Service Module and an 
ICPS from ULA? I know that sounds crazy, but again, we're 
looking at all options. And in fact it works. It requires a lot 
of modifications to the launch infrastructure, to the 
launchpad, to the erector arm. It takes a lot of modifications 
to do cryogenic and hypergolic refueling on the pad, which 
doesn't currently exist. There--it takes a lot of time and 
there's a lot of cost and there's risk, and it wouldn't work 
for accelerating a 2020 launch of an Orion crew vehicle.
    But what it did demonstrate is that if you have a little 
bit of extra time, 2023, maybe 2024, a lot of that uncertainty 
could be retired. And if we're going to get----
    Ms. Horn. So just because I have a few more questions----
    Mr. Bridenstine. Yes.
    Ms. Horn [continuing]. That I want to get to. So can you 
boil it down to the final decision? Because I appreciate you 
looking at all those things, but can you boil that down to the 
final decision that we're still on track----
    Mr. Bridenstine. The----
    Ms. Horn [continuing]. With the SLS for EM-1?
    Mr. Bridenstine. Absolutely.
    Ms. Horn. OK.
    Mr. Bridenstine. SLS is the best--in fact it's the only 
option for EM-1, and there are options in the future that need 
to be considered. And when we land on the moon in 2024, it's 
only----
    Ms. Horn. OK.
    Mr. Bridenstine [continuing]. Because of an all-of-the-
above strategy.
    Ms. Horn. There's a couple more questions I have, and I'm 
just going to boil them down really quickly. Actually, I've got 
quite a few more. But focusing on the accelerated moon landing 
and how we're going to get there moving it up even another 5 
years from where we were, there are with these announcements 
and moving it up, what is the need for the lunar demonstration 
programs given this proposed accelerated timeline? How are 
those programs going to be impacted?
    Mr. Bridenstine. They're important. So, you know, we have 
the commercial lunar payload services underway where we are 
going to purchase the access to the moon commercially. We're 
going to--you know, small payloads, 10 pounds or less, can you 
deliver it to the south pole of the moon so we can characterize 
the water ice, understand kind of what is the value of the 
specific territory where we want to land? So those missions are 
underway right now. They're critically important to helping us 
understand where--when we land humans on the surface of the 
moon, where we want to place those humans.
    Ms. Horn. OK. My time is expired, but we'll be submitting 
some more questions for the record. Thank you.
    Mr. Bridenstine. Yes, ma'am.
    Chairwoman Johnson. Thank you very much. Mr. Balderson.
    Mr. Balderson. I apologize, Mrs. Chair. I didn't hear you.
    Good morning.
    Mr. Bridenstine. Good morning.
    Mr. Balderson. My first question to you would be the FY2020 
budget request calls for the elimination of NASA Office of 
Education. I believe that we need to be encouraging hands-on 
STEM education, which NASA has supported in the past. Could you 
elaborate on how NASA will continue to support STEM education 
while zeroing in on the education account?
    Mr. Bridenstine. Absolutely. So NASA does this all the time 
through the various mission directorates. NASA does it all the 
time through the various centers across the agency, and we do 
it when we partner with universities, with, you know, 
critically important projects and programs for the agency and 
our exploration mission and our planetary science missions.
    So we have a broad kind of STEM agenda that is funded in a 
whole lot of different ways. That specific Office of Education 
is a small piece of everything that we do. I can give you an 
example. A couple of weeks ago I was at a FIRST (For 
Inspiration and Recognition of Science and Technology) Robotics 
event, and there were thousands of kids there. NASA sponsors it 
to the tune of about $4 million annually. Why? Because if you 
look at the people that are building our robots that are 
currently on Mars, they were participants in FIRST Robotics 
when they were coming up through school. So that's an amazing 
program that has paid dividends for NASA and in fact for the 
country.
    And so what we like to do is focus on areas where we know 
we're getting a return for the agency and a return for the 
country. And, again, given the constraints of the budget, we've 
decided to focus on those areas.
    Mr. Balderson. OK. Thank you. I have one more question. In 
your testimony you talk about the importance of the Lunar 
Gateway in order to continue manned missions beyond the low-
Earth orbit. I think it's important to recognize the hard work 
being done at NASA at the Glenn Research Center, which is just 
north of my district in Ohio. My team had the chance to tour 
the facility that is working on the development of the power 
propulsion element at NASA Glenn, and found the work to be 
fascinating. Could you talk about the importance of work being 
done at research centers around the country?
    Mr. Bridenstine. Absolutely. And that power and propulsion 
element that's going to be part of Gateway, when we talk about 
Gateway, some people think of it as like a space station in 
orbit around the moon. It's very different. This is in fact--
it's a reusable command and service module that is going to 
enable our astronauts and our robots and our landers and 
rovers--it's going to enable us more access to more parts of 
the moon than ever before. And the reason that's possible is 
because of that power and propulsion element, solar electric 
propulsion at thrust values that are greater than we've ever 
been able to achieve before with solar electric propulsions. 
That's very high specific impulse. It means that the fuel is 
going to last a long time. The goal is for the Gateway to 
remain in orbit around the moon for a period of 15 years to be 
able to go from that near rectilinear halo orbit all the way up 
to the L1 point and the L2 point, which enables all of our 
capabilities to get to more parts of the moon than ever before. 
So that power and propulsion element is critical.
    Mr. Balderson. Thank you very much.
    Madam Chair, I yield back my remaining time.
    Chairwoman Johnson. Thank you very much. Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Madam Chair.
    And, Mr. Bridenstine, thanks for being before our Committee 
today, and it's good to see you.
    Initially when I came in, I was disappointed in the report 
that came back on the pathway to Mars because they basically 
said, well, given the constraints that NASA faces and budget 
and all this stuff, we don't think we can get there for a long 
time was more or less what they said, which really was 
disappointing to me. And, quite frankly, I was very encouraged 
by your initial comments to the Chairwoman about the desire to 
get to Mars by 2033. And I don't mean to be a one-trick pony on 
this, but I think it drives a lot of other conversations.
    And so, you know, it's a responsibility of the Congress to 
provide you all with the resources, and the pressure that you 
felt from the White House and--not you but NASA to accelerate 
returning to the moon, you know, being able to survive on the 
moon for extended periods of time, quite frankly for me I'm OK 
with that because I think it accelerates the effort to get to 
Mars, which I think is the underlying driving force here for 
inspiration, as well as for NASA to just really expand and 
continue to expand its capabilities and its imagination.
    So I really don't have too many questions. My 
responsibility is to continue to talk to this Committee and to 
others about this goal.
    Something that's interesting--and this is sort of outside 
the context of this Committee--is when Vice President Pence 
says we're in a space race or we've got competition, there's an 
element of national security that is attached to that somewhat. 
It's not just a civil side of our budget that is implicated in 
that. And so I'm going to be turning over every stone to 
provide the resources so that the technical, the science, all 
that stuff to get this done. And I'll just have an open-ended 
statement to you about that, and you can respond.
    Mr. Bridenstine. I will tell you, Congressman Perlmutter, 
your leadership on this has been amazing. In fact, when I came 
over here, I said, look, I'm going to see my friend Ed 
Perlmutter, and I need to get a bumper sticker that says 2033 
on it. I didn't have one in my office. I don't know why I 
didn't have one in my office; I should have. But I walked into 
an office just down the hall, and I stole one from somebody who 
works at NASA. So just know that your efforts have been felt 
and seen and heard throughout NASA, and we're grateful for it, 
and we are doing everything we can to accelerate that agenda 
because you're right; Mars is in fact the horizon goal. The 
moon is the tool that we need to get to Mars.
    The glory of the moon is it's a 3-day journey home. We have 
seen what happens when there's failure on the way to the moon 
with Apollo 13. People can make it home safely. If that were to 
happen on the way to Mars, it would be a very bad day for the 
country, and we don't want that to happen, so the moon is the 
tool to get to Mars, and we're doing everything we can to 
accelerate.
    Mr. Perlmutter. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair and Ranking Member, 
for holding this hearing today, and obviously a big thank you 
to you, Mr. Bridenstine, for your work for our country and with 
NASA.
    So, like Troy, I represent northeast Ohio. He's central 
Ohio. And we're home to the NASA Glenn Research Center, as you 
know, a quintessential research center for achieving NASA's 
vision and mission. Having visited the center recently, I saw 
firsthand just how incredible the scientists are, the 
engineers, the technicians working there, over 3,000 strong, 
just absolutely amazing work.
    As you may know, the midwest has suffered from the loss of 
manufacturing jobs over the last decade. Look no further than 
our recent closing in Lordstown at the GM plant. It's my belief 
that in recent years, certainly with the Glenn Research Center, 
NASA has underutilized the commercial aerospace resources and 
human capital of Ohio and nearby States. What can you do or 
think about to ensure that midwest's capabilities and 
capacities are recognized in the procurement and development of 
goods and services obtained by NASA?
    Mr. Bridenstine. That's another very important question. We 
are working every day at NASA to make sure that we're taking 
advantage of all of our centers and all of the talent that we 
have, and we always consider the talent internal to our agency 
before we go outside the agency. And what you--you know very 
well, as--we have a lot of talent. The power and propulsion 
element, as we just discussed, is a critical piece of the 
future architecture, but the aeronautics capabilities of Glenn 
are really second to none. We're talking about wind tunnel 
technologies, we're talking about the ability to test engines, 
to increase fuel efficiency, to in fact, you know, improve, you 
know, the environmental standards of aircraft. All of these 
things are being done at Glenn in a very meaningful and 
positive way, and they have implications for our country.
    When we talk about exports, when we talk about how 
important our engine manufacturing is around the world, we are 
able to maintain this very cutting-edge capability in the 
propulsion sector of the aviation market because of the efforts 
of people at Glenn and other research centers throughout NASA.
    Mr. Gonzalez. Thank you. And then shifting gears, in your 
testimony you highlight the importance of aeronautics and U.S. 
leadership in the global industry. As Russia and China continue 
to make investments in their domestic aerospace sector, I think 
it's more critical than ever that NASA continue to lead in the 
fundamental research that will help the U.S. aerospace sector 
remain competitive, especially in commercial aircraft and 
autonomous passenger and cargo systems. Administrator, can you 
talk about how important the aeronautics research that NASA 
conducts is to our aviation economy and how NASA can better 
position itself to ensure the U.S. is a leader in aviation 
research, so kind of take a strategic lens on it if you could?
    Mr. Bridenstine. Absolutely. So we--what we have to think 
about is what does the future of aviation look like and how 
does the United States of America remain preeminent in that 
space really for our own economy and for exports? And that's 
really where NASA plays. There are some very leading-edge 
investments that might be too high-risk for a for-profit 
company to invest in, but we can come alongside and support 
them in that effort, and we've done that. I don't know if you--
if you look at engines these days on aircraft and, as a pilot, 
I look at these engines I'm like, man, these engines keep 
getting bigger and bigger and the point now where the engines 
are flat on the bottom because they'll hit the ground, that 
kind of thing, what is driving that? Well, these are reduction 
gear capabilities developed by NASA with partnerships with our 
commercial industries ultimately so that we can increase fuel 
efficiency, reduce noise, and have better environmental 
standards without losing any kind of power or thrust. So those 
bigger turbofans are a direct result of NASA investments, and 
we want to keep doing that.
    It's also important to note a couple of other things I 
think are important. We want to be able to fly from New York to 
L.A. in a matter of 2 hours instead of 6 hours. We want to have 
an ability to fly supersonic across the United States without a 
sonic boom that is disturbing to people and infrastructure. 
That technology is being developed right now so that at the end 
of the day FAA (Federal Aviation Administration) can give us a 
determination that it's perfectly OK to fly supersonic over the 
United States. We're working on that.
    And then when we think about urban air mobility, the idea 
that you can order something and have it delivered to your 
front door with, no kidding, a drone in a matter of minutes, 
that capability is on the horizon, and eventually the idea that 
we're going to be able to fly humans across a city and avoid 
traffic with urban air mobility, like we need to be thinking 
about that today.
    There's billions of dollars of investment going into these 
activities all over the world. The United States of America 
needs to be in the lead.
    Mr. Gonzalez. I completely agree with you. Thank you for 
your time, and I yield back.
    Mr. Bridenstine. You bet.
    Chairwoman Johnson. Thank you very much. Dr. Foster.
    Mr. Foster. Thank you, Madam Chair, and thank you, 
Administrator. Let's see. One quick question on the 2024 launch 
date. Who made that decision to change it by 5 years?
    Mr. Bridenstine. That was a decision by the President of 
the United States announced by the Vice President of the United 
States.
    Mr. Foster. Fascinating. OK. Were technical people 
consulted----
    Mr. Bridenstine. Yes.
    Mr. Foster [continuing]. And budgetary people consulted?
    Mr. Bridenstine. Yes.
    Mr. Foster. And was the question asked what that would do 
to the budget at the time that the command was given?
    Mr. Bridenstine. The determination was made that we would 
need to make an amendment to the budget requests, and we're 
working on that right now.
    Mr. Foster. And you're doing that on a zero-sum basis or 
are you going to be allowed to increase the total for NASA or 
are you going to have to cut other programs?
    Mr. Bridenstine. Oh, I will tell you it will not be 
successful if we're cutting other programs because we have to 
have bipartisan support.
    Mr. Foster. And so you will be asking for an increase. And 
was it specified who would be taxed to do that?
    Mr. Bridenstine. Will there be taxes to do it?
    Mr. Foster. Yes, taxes. If you're going to increase the 
budget, normally you have to tax someone to pay for it or to 
specify what else you're cutting.
    Mr. Bridenstine. That would be a determination by somebody 
other than the NASA Administrator.
    Mr. Foster. OK. All right. Now, you're talking about, you 
know, essentially a program based on chemical rockets that 
would be completely understandable to Werner von Braun, 
everything you're proposing. And there have been for, you know, 
decades conceptual designs for ways to get stuff into low-Earth 
orbit for much less. And, you know, for example, you know, 
these are things like electromagnetic launch systems, air 
breathing systems, space elevators, Lofstrom loop, all this 
sort of stuff, and it seems like you're spending a negligible 
amount on stuff that actually has a chance to reduce the cost 
of getting stuff into low-Earth orbit. And is that something 
that bothers you or have you considered moving the needle on 
that so that actually we have a chance 50 or 100 years from now 
with having space be affordable to people, which I think it's 
pretty clearly not going to happen when--if we just keep using 
chemical rockets again and again?
    Mr. Bridenstine. That's an important question. You're 
absolutely right; chemical rockets are expensive. We're making 
really great advancements right now on the reusability of 
rockets, which is driving down cost and increasing----
    Mr. Foster. But that's not a major effect. You know, I 
visited SpaceX, you know, when they were--this was still 
conceptual and hadn't been proven yet and I asked the question, 
OK, if you reuse the booster, you know, let's say it all works 
and that they're able to do it, you know, and you reduce your 
capacity to low-Earth orbit because you have to retain fuel to 
land the booster, you have to go and take stuff apart and re-
space--qualify it, and everything. How much money do you 
actually save? And the answer from the engineer at the time was 
you save 17 percent. That is not transformative. We need a 
factor of 10 in the reduction of cost, not, you know, whatever 
number you get from reusability of the first-stage booster. So 
you have to spend money on transformative technologies, and I 
don't see that anywhere in your budget. How do you view that 
tradeoff?
    Mr. Bridenstine. So I think--again, I think it depends on, 
you know, what your definition of transformative technologies 
are. I will tell you----
    Mr. Foster. Something that could factor of 10 in the cost 
to low-Earth orbit, OK?
    Mr. Bridenstine. Well, if there's a way to get a factor of 
10 reduction in cost, I'm all for it, and I'd love to hear your 
ideas on it. I know you're a physicist, and I'm all ears.
    Mr. Foster. It relies on fundamental research. If you want 
to make the space elevator work, you've got to get long carbon 
nanotubes in mass production. You know, these are things 
where--they're good ideas on how to spend the money, but if you 
concentrate more and more on let's go to the moon with the 
exact same technology we used 50 years ago in the next 5 years, 
the money that's spent there is not being spent on something 
that could actually make space accessible to large numbers of 
Americans 20, 30, 50 years from now. So I urge you to rethink 
the trajectory you're on.
    And in a similar way space nuclear power is something that 
you're working on, and the decision that you have to make early 
is whether you're going to use weapons-grade material or non-
weapons-grade material. So I understand that for nuclear space 
propulsion you have settled on low-enriched non-weapons usable, 
and--that's correct, yes.
    Mr. Bridenstine. That's what--yes, we currently----
    Mr. Foster. Right.
    Mr. Bridenstine [continuing]. Use, yes.
    Mr. Foster. On the other hand, it appears you're not 
heading in that direction at least initially for space power 
reactions--reactors. So these are things that would be used 
potentially on satellites, potentially on lunar or Mars spaces.
    Mr. Bridenstine. Sure.
    Mr. Foster. And, you know, a future where every spacefaring 
nation has a big inventory of weapons-grade material to service 
the reactors that they are using all over the moon and all over 
Mars is not a very safe space environment. And I've spent some 
time looking into it. There will be some small performance 
compromises in going with low-enriched non-weapons-grade 
material that I really urge you to look hard at keeping alive 
the prospect of having an international collaboration to 
develop workable non-weapons-grade-based materials that the 
whole world will use.
    Mr. Bridenstine. I will look at those options.
    Mr. Foster. Thank you. I appreciate that.
    Chairwoman Johnson. Thank you very much. Mr. Cloud.
    Mr. Cloud. Hello.
    Mr. Bridenstine. Oh, hey, there you are.
    Mr. Cloud. Good to see you.
    Mr. Bridenstine. Good to see you.
    Mr. Cloud. Thanks for being here. You certainly probably 
have the funnest job in the room.
    Mr. Bridenstine. I agree.
    Mr. Cloud. And it's certainly exciting what's going on in 
space right now. Not only is it exciting, it's necessary and 
noble, the work that's being done. NASA certainly is part of 
our national heritage, and what's going on is necessary.
    This renewed space race is certainly essential not only 
from the exploratory side of science and those kind of things 
but from a national security standpoint when we see China and 
all they're doing to take the high ground. And an information 
economy, who controls space controls the information, and it's 
just essential of course that we continue to lead in that 
front.
    My question has to do with if you talk to the Government 
Accountability Office--GAO, they have NASA on the High-Risk 
List for waste and have actually downgraded them--now, this is 
what you walked into. I'm wondering what we're doing because as 
we prioritize how important it is to spend the certain levels 
of money, I think it's just as important that we prioritize the 
efficiencies. Can you speak to what NASA is doing to create 
efficiencies and especially, you know, in the sense of being 
more efficient than China in winning the space race?
    Mr. Bridenstine. Absolutely. So you're absolutely right. 
The GAO High-Risk List has NASA on it, and yes, we have been 
downgraded. So the reason we're there is because we have not 
been good at maintaining schedule, and we have not been good at 
maintaining costs. Now, there's a number of reasons for that, 
and I think people on this Committee are well aware. What we do 
is unique. It's unlike anything that any other agency does. We 
build things that have never existed before, and we have to 
invent things to make our products work, things that are 
really, quite frankly, astonishing and stunning.
    So I'm not making any kind of excuse. We need to be much 
better at making determinations as to the cost of what we're 
going to build and the schedule of what we're going to build. 
Part of that requires us to ultimately not be so aggressive in 
what we say we can achieve. We need to make sure that we have 
margin built into our schedules and into our cost as a matter 
of fact.
    NASA is very ambitious as an agency. It's a culture that in 
fact is a--it's kind of a good thing. Everybody wants to work 
really hard to achieve just amazing and astonishing things and 
do it yesterday, but sometimes we need to be more realistic, 
and that's part of what we're trying to get fixed. When we have 
schedule delays, whether it's commercial crew or SLS or 
exploration upper stage, whatever the case might be, those 
delays ultimately put--it puts us as an agency at risk, and it 
encourages Congressmen to ask questions that we don't like to 
answer. So we've got to get better at making those assessments, 
and we're working on that.
    Mr. Cloud. I think of, for example, there's an Israeli 
space company landing--or in the next few weeks we think will 
land----
    Mr. Bridenstine. Yes.
    Mr. Cloud [continuing]. On the moon, the first commercial 
company, what's going on in the commercial industry. Can you 
speak to ways that NASA is partnering with it, maybe----
    Mr. Bridenstine. Absolutely----
    Mr. Cloud [continuing]. Is that one way to save money? And 
also----
    Mr. Bridenstine. Yes.
    Mr. Cloud [continuing]. For example, the XPRIZE, that 
Israeli company was motivated by an XPRIZE. Is NASA doing that 
kind of thing when it comes to contracting to maybe take the 
burden of research off some of these things and put it in the 
innovators----
    Mr. Bridenstine. Yes. Here's the challenge. Sometimes the 
companies have an incentive to overstate what they can achieve 
as well because they're all trying to win contracts in that 
particular case, so we have to be careful about--in other 
words, we as an agency not only need to be good at managing our 
own programs, we have to be really good buyers. We have to be 
smart buyers. And in fact I would argue that it could be said 
that, as we have turned more to commercial industry to provide 
capability, we have lost in some cases the intellectual capital 
necessary to be a smart buyer.
    So on one hand, yes, you're right, we can outsource some of 
those challenges. On the other hand, we still have to meet 
schedule and we still have to meet cost, and we can't rely on 
somebody else to tell us what that schedule and cost is because 
sometimes they're not right either, and then we're held 
accountable for it. So we have to be careful with how we go 
about that in the future.
    But the XPRIZE, you mentioned SpaceIL, we are partnering 
with SpaceIL, which is that little Israeli company. They're 
going to be landing something on the moon for $95 million worth 
of investment, which is a radical change in cost for anything 
that's ever landed on the moon previously. NASA is a partner 
with them on an instrument that's on that vehicle. We are also 
providing our deep space network to support them with 
communications, which is unique to us. So we're a partner with 
them. We're proud of that.
    And we have our own program domestically for commercial 
lunar payload services where we're going to have--we've already 
signed up nine companies that are able--that we have assessed 
are able to deliver small payloads to the surface of the moon, 
and we're looking forward to--when in fact we have already put 
out the first task order and we're looking forward to seeing 
what industry is going to be willing to provide from a domestic 
perspective as far as landing small payloads on the surface of 
the moon.
    All of these things are critical capabilities, and in some 
cases they help us with the GAO high risk report. In other 
cases, it could actually put us in more risk. But we have to be 
more careful about how we go about telling you and others about 
our schedule. As much as we want to tell everybody were going 
to get there yesterday, we need to be really careful about 
that.
    Mr. Cloud. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. McAdams.
    Mr. McAdams. Thank you, Madam Chair, and thank you, 
Administrator Bridenstine, for your time and for your testimony 
to the Committee here today.
    NASA enjoys an incredible reputation with the American 
people, and myself as well, and I'm excited to hear more about 
the inspiring plans for the future of our Nation's space 
program. It's been an interesting and informative dialog today.
    Utah, my home State, has a proud heritage of supporting 
human space exploration as well from the building of the 
reusable solid rocket motors that boosted the space shuttles' 
135 launches from 1981 through 2011 to the updated versions 
being produced for the Space Launch System or SLS to take us 
back to the moon and beyond, as we've been discussing today.
    I also believe that I share with you the belief that we 
must ensure our priorities are informed by the scientific 
community's knowledge and priorities for exploration and 
technology development and that our goals, which certainly must 
be ambitious as they are, are also grounded in our ability to 
deliver the requisite technology and safely complete the 
missions.
    So my question for you is, first of all, I guess I'm a 
little perplexed that after NASA prepared the agency's budget 
request, the Administration announced an acceleration, the 
acceleration of the plans to send humans to the moon again by 
2024 rather than the previous goal, a goal that I support. And 
while I think that objective is laudable, I'm concerned that 
given what appears to be a lack of planning for such a goal 
that NASA still has a lot of questions to answer to achieve 
that mission on such a short timeframe.
    So I'm also pleased to hear your ongoing commitment to the 
SLS, but how would this budget speed up SLS development and 
readiness, particularly in light of its important role in the 
accelerated mission schedule?
    Mr. Bridenstine. So the budget request currently has us 
focused on the core stage of SLS, which is where the challenge 
has been, specifically the engine section on that core stage, 
and so we are using the resources that we have for the SLS 
focused on that. And we have in fact made tooling investments 
so that we can integrate the oxygen tank, the inner tank, the 
hydrogen tank in a horizontal way so the engine section is no 
longer in the critical path and we can continue assembling the 
rest of the rocket for a delivery by the end of this year. So 
all of that I think is progress in the right direction. And--
you had a question ahead of that. What was----
    Mr. McAdams. Yes, just how--in light of the--sorry, let me 
just look back at my notes here.
    Mr. Bridenstine. Yes.
    Mr. McAdams. Well, I guess I had--a follow-on question that 
I would have, has this accelerated schedule--you discussed that 
with the Aerospace Safety Advisory Panel and what comments or 
concerns did they have if any?
    Mr. Bridenstine. So that's a--the answer is that we have 
discussed this. I had a townhall yesterday. We got questions 
about it with the entire NASA family and put it all out there 
and said, look, we have a new agenda to get there in 2024, and 
of course there were questions like are we going to compromise 
safety. And the answer is, Congressman, absolutely not. We have 
independent technical authorities embedded into the programs. 
Those independent technical authorities, you know, they don't 
get their assessment from their manager is not--does not come 
from the program. It's completely independent, and if they need 
to throw a red flag and say this isn't safe, they have a job to 
do that. And we want those independent technical authorities 
for safety to stay in place whether it's engineering or 
technology or, you know, human factors, medicine, all of those 
safety valves are in place, and they're strong, and we're going 
to keep them. We're not going to take any undue risk.
    But I would like to say with the--when John F. Kennedy 
announced we were going to the moon in Congress as a matter of 
fact in 1961, it was only weeks after Alan Shepard passed the 
Karman line. It was basically a very short hop straight up and 
straight down. And in a matter of weeks he was announcing we're 
going to go to the moon by the end of the decade.
    That was a moment in American history that was 
transformative. It captured the imagination of the American 
people. It wasn't without challenges, but we achieved it, and 
now it's an accomplishment that everybody still quotes, 
everybody still talks about. My children watch the videos, and 
I'm sure your family has as well.
    Mr. McAdams. Yes.
    Mr. Bridenstine. So all of these things I think are 
important. Like this is--in my view, this is a great 
opportunity for this agency, it's a great opportunity for the 
country, and I think we can capitalize on it.
    Mr. McAdams. Thank you, Mr. Administrator. I applaud the 
ambition. Let's make sure we do it safely.
    Mr. Bridenstine. Yes, sir.
    Mr. McAdams. And I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Olson.
    Mr. Olson. I thank the Chair and welcome to a former Member 
of this Committee, a former naval aviator, and a fellow Rice 
University graduate.
    Mr. Bridenstine. Go Owls.
    Mr. Olson. Go Owls.
    Mr. Bridenstine. Hoot.
    Mr. Olson. Before I ask you questions, I'm compelled to 
make some comments on Vice President Pence's vision of going to 
the moon in 5 years. We all know NASA's attitude from Apollo 
13. Failure is not an option. But listening to my colleagues 
from the other side of the aisle, that phrase may now be 
failure is the only option.
    I remind my colleagues the young President John Fitzgerald 
Kennedy told the American people at our alma mater Rice 
University--and this is a quote--``I realize that this is in 
some measure an act of faith and vision,'' end quote. ``We 
choose to go to the moon in this decade.'' He said that on 
September 12, 1962. Neil Armstrong said, ``That's one small 
step for man, a giant leap for mankind'' 6 years and 311 days 
after that inspiring speech.
    We can go back to the moon if we make the commitment in 5 
years. And I think to go to Mars we have to go back to the moon 
first. The moon should be the place we train for going to Mars. 
A few examples, the moon's gravity is one-sixth of our gravity. 
Mars is one-third. You talk to Neil Armstrong--I did--before he 
passed on or Buzz Aldrin. They tried to walk on the moon. 
Within minutes, they learned how to hop to get around. My point 
is we have a great pool by the Johnson Space Center--they can 
train there--but it's not actually working in the atmosphere--
the gravity we have between Mars and the moon.
    We have one difference, too, about going to the moon in the 
1960s today is, we have the rocket being built right now, the 
SLS. It's going forward. It's online. It may be ready to fly in 
the next couple years. The Saturn V came out of nowhere to go 
flying. We're way ahead of the curve on that one. We have the 
crew vehicle. This Committee saved the Orion capsule when it 
was killed with the previous Administration's destruction of 
the Constellation Project. We saved that capsule to take human 
beings, Americans back to the moon, to Mars, and beyond.
    It's been mentioned, too, we have to have bigger rockets to 
go to Mars, faster rockets. Right now, the moon is about 2 days 
away with the current rockets. Jim can tell you Mars is 
probably 3 months, 4 months, 6 months?
    Mr. Bridenstine. Seven maybe.
    Mr. Olson. Seven months.
    Mr. Bridenstine. Yes.
    Mr. Olson. That means people have to have food, they have 
to have water, supplies. That's going to be one big heavy 
rocket, have to have new propulsion system. For example, a 
former astronaut named Franklin Chang-Diaz had a rocket that 
keeps accelerating. Jim, I've forgotten what the rocket is 
called, but it goes faster and faster, not the speed of sound 
but the speed of light, maybe get to Mars within 3 weeks as 
opposed to 3 months.
    Also, there's a big belt of radiation between Earth and 
Mars. We've never been through that with humans. We have to 
learn how we get through that band and keep humans alive.
    So my question to you my good colleague, Administrator 
Bridenstine, do you think going to the moon helps us get to 
Mars?
    Mr. Bridenstine. Without question. In fact, I would argue 
you cannot get to Mars unless you use the moon as a tool to get 
there. And what I'm talking about is we need to learn to live 
and work on another world. You don't want to try that for the 
first time when it's going to take 7 months get home and, by 
the way, you've got to be there for 2 years before you try to 
come home because the Earth and the moon are not going to be on 
the same side of the sun. So the moon is the proving ground. We 
have to learn to live and work on another world.
    We've proven--going back to Apollo 13, we have proven that 
you can come home safely when something goes wrong during a 
moon mission. If we were to do that on the way to Mars, it 
would be devastating.
    Mr. Olson. The Franklin Chang-Diaz rocket is called the 
plasma rocket. Basically, it goes faster and faster and faster.
    One question about China.
    Mr. Bridenstine. Yes.
    Mr. Olson. As you know, Apollo 11 left a plaque on the moon 
that said, ``We came in peace for all mankind.'' I guarantee 
you if China put a plaque on the moon it'll say something like 
``We came to make the moon ours.'' Look no further than right 
here on Earth, the South China Sea. China has torn apart 
pristine reefs, six of them, to make bases out of them. Do we 
think they'll change their attitude going to the moon as 
opposed to what they're doing here on Earth or should we ramp 
this up and go to the moon ASAP?
    Mr. Bridenstine. You're asking me?
    Mr. Olson. I'm asking you, yes, sir.
    Mr. Bridenstine. Oh, I think we should go ASAP. But it's 
also true, just as you identified, when you talk about a plasma 
rocket, the idea is when you think about a rocket, you've got 
two things. You've got mass that comes out of the back end of 
the rocket and you've got how fast that mass is going. What 
Franklin Chang-Diaz is doing is he's accelerating subatomic 
particles, electrons, as you mentioned, at, you know, close to 
the speed of light. And so when you talk about the mass being 
that small, that means the acceleration has to be that fast, 
which is why that would be a capability--that would be--I know 
earlier Congressman Foster was talking about nuclear 
capabilities. That would be nuclear electric propulsion, which 
would be an absolute game-changer. Getting to Mars in a matter 
of weeks rather than a matter of months would be 
transformational and enable us to do more, and it would protect 
human lives. So we are making investments in that. In fact, 
those investments are in this budget and would be 100 percent 
transformational.
    Mr. Olson. I think I'll close my time by saying go Navy, 
beat Army.
    Mr. Bridenstine. Go Navy.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Chairwoman Johnson. Thank you, 
Administrator Bridenstine.
    In 2009, the National Academies published the study 
``America's Future in Space,'' aligning the civil space program 
with national needs. And, among other things, and said, quote, 
``NASA and NOAA should lead the formation of an international 
satellite observing architecture capable of monitoring global 
climate change and its consequences.'' Congresswoman Bonamici 
also brought up the 2018 Earth Science Decadal Survey which 
prioritized the measurements that would be taken from two 
missions, the PACE mission that she mentioned and the CLARREO 
Pathfinder mission. Both of those missions I think are widely 
regarded as crucial in helping us measure how our climate is 
changing and to plan mitigation and adaptation policies.
    You know, we've already mentioned that that's been 
curtailed in the President's budget. I think it's worth 
reminding that those were cut in the last two budgets from the 
Administration. Those programs exist today not because of the 
Administration but because Congress insisted on keeping those 
programs going.
    Mr. Bridenstine. And we are, sir, keeping those programs 
going, and we're moving rapidly to get those programs online.
    Mr. Casten. Well, but as you've mentioned, they're being 
curtailed now because of the changes that you're putting in 
place, and so you had mentioned that there was a budgetary 
pressure to terminate those missions in your earlier comments. 
Was there any scientific basis for terminating those missions?
    Mr. Bridenstine. There indeed was. CLARREO Pathfinder is a 
technology demonstrator to be on the International Space 
Station. It ultimately is basically a radiation budget 
instrument that, you know, we have other instruments in orbit 
right now that are measuring the radiation budget of the Earth. 
In other words, energy comes in from the sun. It's in optical 
parts of the electromagnetic spectrum and other parts of the 
electromagnetic spectrum, and then when that energy dissipates, 
it's an infrared. And so we're measuring the total basically 
radiation budget of the Earth so that we can monitor climate 
change. And we're doing that not just with CLARREO Pathfinder, 
which is simply a technology demonstrator. We're doing it with 
missions that are already on orbit.
    Mr. Casten. Well, if I could ask you, please, to submit to 
the Committee a specific list of those missions that are going 
to provide the information that we're losing----
    Mr. Bridenstine. Absolutely.
    Mr. Casten [continuing]. In that. And I guess I'd also like 
to know--you mentioned that you had some consensus from the 
scientific community. Can you provide specifically who in the 
scientific community has confirmed that cutting those missions 
will not interfere with our ability to understand how our 
climate is changing, what we need to do to adapt?
    Mr. Bridenstine. I can provide you with that.
    Mr. Casten. OK. Well, it seems to me that the budget that 
you're proposing has a sense that exploration should be the 
primary mission of NASA rather than understanding the one 
planet in the universe that we know actually has the capability 
to accommodate human life. There is cutting in this program for 
outyear programs. We've got funding right now for studying the 
Earth but cutting an outyear programs, and under these 
scenarios if I'm following the math, NASA is not going to be 
initiating any new high-priority decadal missions over the 5-
year budget horizon, which leaves the possibility for a gap 
with really no priority strategic missions underway and would 
cut Earth science in FY2020.
    Given all that--and this is just a yes or no question--do 
you personally believe that anthropogenic global warming is 
real and happening?
    Mr. Bridenstine. Absolutely I do. As a matter of fact, 
carbon dioxide is a greenhouse gas. We've put more of it into 
the atmosphere than ever before, and it is in fact causing 
climate--the climate to change. And, by the way, we're studying 
every day--in fact, we're launching here in a month the 
Orbiting Carbon Observatory 3, which was cut in the last budget 
request but not in this budget request.
    Mr. Casten. So do you believe that we currently have the 
tools to meet the recommendation of the National Academies that 
NASA and NOAA should lead the formation of an international 
satellite observing architecture capable of monitoring global 
climate change and its consequences?
    Mr. Bridenstine. I absolutely do. Just to be clear, 
Congressman, this budget request is higher than five of the 
budgets under President Obama for Earth science specifically.
    Mr. Casten. But we're cutting the programs that I think 
are--we'll find out when we see your submission coming back. 
What do you think are the chances--you know, I have a real fear 
that we may have a century left that this planet is truly 
habitable, particularly on our coastlines and runaway 
temperatures and melting permafrost. What do you think are the 
chances if we run into a situation in the next century where 
this planet is not as habitable as we'd like it to be that we 
have the ability to escape Earth and live on another planet?
    Mr. Bridenstine. Well, that--that's a--I don't--I don't 
really have any way of answering that question.
    Mr. Casten. Would you say it's greater than 1 percent?
    Mr. Bridenstine. Within how many years?
    Mr. Casten. Within a century. Would you say it's greater 
than 1 percent?
    Mr. Bridenstine. You're talking about moving humanity off 
Earth to another planet? I--I don't--I'm not banking on that.
    Mr. Casten. So then how do you justify overprioritizing 
exploration at the expense of understanding the planet we have?
    Mr. Bridenstine. So I think what exploration does is it 
inspires the Nation. We go back to the Apollo era and we look 
at everything that came from the Apollo era. I hear about Tang 
and I hear about Velcro, but what we're talking about is 
communication architecture, so the way we--many people probably 
listening right now watch DIRECTV or Dish Network, maybe they 
listen to XM Radio, maybe they get their internet broadband--as 
many of my former constituents from Oklahoma, they get their 
internet from space. Like all of those communication 
architectures were born from an idea that we should go to the 
moon back in the 1960s----
    Mr. Casten. I think I'm out of time, but I'm all for 
inspiration and future generations. I just want to make sure 
that we have future generations. Thank you.
    Mr. Bridenstine. Yes, sir.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair. And, Mr. Bridenstine, we 
appreciate you being here.
    You know, space exploration is certainly exciting in its 
own right, and then finding the tons of frozen water on the 
moon certainly adds to its intrigue as far as a steppingstone 
to going to Mars. And I think it's interesting that frozen 
water cannot only furnish water but it can furnish fuel and 
hydrogen and oxygen and so on and so forth, very interesting.
    Purdue University is in my district, and, as you know, 
we've produced 24 astronauts. Among those is Neil Armstrong, 
Gus Grissom, Loren Shriver. Purdue has a long history in space 
and aeronautics innovation. The National Defense Industrial 
Association is hosting a conference at Purdue University over 
the summer on the topic of hypersonics.
    So in that vein can you give us any more detail about 
NASA's plan to invest in the hypersonic technology?
    Mr. Bridenstine. Absolutely. So this is a part of our 
portfolio, and it's an important part. We talk about, you know, 
what we do as an agency. We have to get through the atmosphere 
in order to go to space. Hypersonics are a piece of that. And 
in fact we have a lot of the facilities and the capabilities 
that are resident within NASA that other agencies use for those 
capabilities as well, for testing and ultimately developing 
hypersonics, so we are a partner with other agencies at the 
same time. It's an important part of what we do.
    Mr. Baird. Thank you. Can you also describe to the 
Committee how NASA's partnership with universities like Purdue 
on cutting-edge research--and it may impact agriculture, and I 
have a tremendous interest in that as well.
    Mr. Bridenstine. That's--yes. So----
    Mr. Baird. And----
    Mr. Bridenstine. Go ahead.
    Mr. Baird. No, no, I was just going to ask how this 
Committee could be helpful in helping those partnerships grow 
so----
    Mr. Bridenstine. Great question. No. 1, universities help 
us reach more of the country with the goodness that NASA 
delivers. I would say just so you're aware Purdue, the Center 
Director at the Johnson Space Center in Houston is a Purdue 
graduate. The Associate Administrator of the Human Exploration 
and Operations Mission Directorate here in Washington, D.C., is 
a Purdue graduate. There is a--and forget about the 24 
astronauts; they're littered throughout all of NASA, so you 
should be proud of this university that's in your district.
    Going back to the ag piece--and I think this goes to 
Representative Casten's question as well about what NASA does 
and why Earth science is so important. Climate change is a big 
piece of what we do. We're the only agency that does it, and we 
do more of it than any other nation in the world by far, and 
it's a good thing.
    What we're learning now is from the Earth science 
capabilities that have been delivered for purposes that weren't 
focused on agriculture, we're actually now applying that 
capability to do a number of things, including increasing crop 
yields while reducing water usage. We've got a partnership 
with--going back to the university question you asked, sir, 
partnership with the University of California Cooperative 
Extension, and what they're demonstrating is that with our 
remote sensing from space of the agriculture communities in 
California we are increasing crop yields while reducing water 
usage by 25 percent, which means that water is now available 
for rivers and reservoirs in other areas. We're potentially in 
fact saving species that are at risk, and at the same time 
we're feeding more of the community than we otherwise would 
have fed.
    So crop yields are going up 25 percent, water usage is down 
about 25 percent, and at the same time we're preserving the 
nitrates in the soil. So normally, when you overwater, those 
nitrates erode away. And there's two problems there. No. 1, the 
plants don't have them, which is why the crop yields aren't as 
high; and, No. 2, it ends up in the water that humans drink, 
which costs millions and millions of dollars to clean. So the 
goodness that is coming from the Earth science budget of NASA 
has a lot of application.
    Now, we're just scraping the surface with these cooperative 
extensions--with this cooperative extension of the University 
of California. The goal is to expand this in fact nationwide 
and then worldwide. In 2017, NASA was able to predict a severe 
drought in Uganda in 2017, and because of that, we were able to 
mitigate a disaster with millions of dollars of the American 
taxpayer dollar, but it prevented the natural disaster that 
would have cost dozens of millions of dollars. So we not only 
save lives, we saved American taxpayer dollars because of this 
capability that we have resident in the Earth Science Division 
of the Science Mission Directorate.
    Mr. Baird. Thank you very much. I'm very glad to hear that. 
I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Beyer. Mr. 
Cohen.
    Mr. Cohen. Thank you, Madam Chair, and I'd just like to ask 
a couple of questions. First, I was all concerned when we 
decided to use Russia for all of our launches many years ago. 
Apparently, that's worked. We haven't lost anybody yet, 
although there was one----
    Mr. Bridenstine. Yes, sir.
    Mr. Cohen [continuing]. That didn't do too well. When are 
we going to have our own flights? And when we do, what will the 
Russian program be? Will we have it as a secondary option or 
what?
    Mr. Bridenstine. Great question, and it's something we need 
to start really communicating. I think it's an important issue. 
Yes, this year we believe we're going to have two commercial 
crew providers that enable us to launch our astronauts from 
American soil to the International Space Station. The goal here 
though is not to replace our partnership with Russia. The 
International Space Station has proven to be an amazing 
capability, a channel of communication with a country that, as 
you're aware, we have all kinds of terrestrial disputes but, 
you know, since the 1990s we've been able to collaborate on the 
International Space Station and even before that if you go back 
to the Shuttle-Mir program and even before that if you go back 
to Apollo-Soyuz, height of the cold war, we have, as a Nation, 
been able to cooperate in space.
    They have amazing capabilities. We can take advantage of 
that. We have amazing capabilities that they can take advantage 
of for science and exploration and discovery. We want to make 
sure that when we do have our own capability that they can 
launch on our rockets and we can launch on their rockets. So 
the partnership continues. It's just more of a partnership 
rather than us purchasing seats from them as a customer. It 
would be more of a partnership, in other words, a no-exchange-
of-funds kind of bilateral partnership for access to low-Earth 
orbit.
    Mr. Cohen. So once we get our rockets going and get us to 
the moon, we will not be using the Russians so much?
    Mr. Bridenstine. It'll be a partnership. It'll be a 
partnership rather than a dependency.
    Mr. Cohen. And you feel confident that--I don't think 
they've lost anybody in space yet, have they?
    Mr. Bridenstine. Not since we've been dependent on them for 
our access to the International Space Station. We had one 
rocket that we launched back in October----
    Mr. Cohen. Yes.
    Mr. Bridenstine [continuing]. But because of the--their 
design, they were able to eject their crew module and everybody 
came home safely.
    Mr. Cohen. Going to moon and going to Mars, is that what 
every other country has as their line, first moon and then to 
Mars?
    Mr. Bridenstine. Well, I will tell you we're unique in that 
we have the capability to deliver this opportunity. I will tell 
you that every country in--the head of every agency that I've 
met with is very excited about going to the moon, and they're 
looking forward to partnering with us. This is about--this is 
really American leadership at its finest. There is just a lot 
of excitement all around the world to partner with us on this.
    Mr. Cohen. What has China done? Did they go around once? 
Did they send some----
    Mr. Bridenstine. They have had a number of landers on the 
surface of the moon. They currently have Chang'e 4 on the far 
side of the moon.
    Mr. Cohen. But no people?
    Mr. Bridenstine. They've never had a person on the moon.
    Mr. Cohen. All right. But China wants to do that obviously.
    Mr. Bridenstine. They do.
    Mr. Cohen. And then after that is there a plan to go to 
Mars or do they have a plan beyond that?
    Mr. Bridenstine. I don't know that they have a plan to go 
to Mars at this point.
    Mr. Cohen. OK. You were talking about supersonic flight----
    Mr. Bridenstine. Yes, sir.
    Mr. Cohen [continuing]. And a quick research, Boom and 
Boeing are both kind of looking into this as private--what's 
NASA's role in this?
    Mr. Bridenstine. That's a great question. So what we do is 
we prove capability, we prove technology, we retire risk, and 
our goal is always to commercialize, to license, to give other 
people the capability of advancing their technologies or using 
our technologies to their benefit, the intent being that it 
enables the United States of America to remain a leader in this 
very high technological field of aerospace and then increase 
exports. That's the role that we play. We do not want to 
compete with private sector. We partner with the private sector 
so that they can actually achieve more in the international 
community.
    Mr. Cohen. And is the Concorde coming back?
    Mr. Bridenstine. Well, the Low Boom Flight Demonstrator is 
not the Concorde, but it will--the Concorde--it created a very 
loud boom----
    Mr. Cohen. Yes.
    Mr. Bridenstine [continuing]. And that's why it couldn't 
fly over the United States. It only flew over the ocean. What 
we're trying to do is something entirely different where we 
could have a supersonic aircraft fly over the United States and 
the boom would be insignificant.
    Mr. Cohen. I thought I read somewhere that Concorde, 
British, French, they were going to start to do flights again 
over the ocean.
    Mr. Bridenstine. I don't know about the Concorde. I do know 
that there's a lot of companies that are interested all over 
the world interested in supersonic flight again.
    Mr. Cohen. And then let me ask you about the spacesuits 
that were not----
    Mr. Bridenstine. Yes, sir.
    Mr. Cohen [continuing]. For women. You had one that could 
fit a woman; you didn't have two. I know it's Saturday Night 
Live and all, but still----
    Mr. Bridenstine. So----
    Mr. Cohen. You'd have suits for dogs and monkeys and 
another woman?
    Mr. Bridenstine. So we did have two spacesuits for two 
women, and the challenge is each spacesuit is not--think of it 
as a spacecraft. That's what it is. It's a spacecraft that goes 
outside the International Space Station and they're designed 
not just for the person but for the specific mission. And our 
astronaut Anne McClain made a determination that in the 
interest of crew success that she thought it would be better to 
change the spacewalk person rather than to change--modify the 
spacesuit. We--as NASA, we had an option to modify the 
spacesuit. We made a--I say we. She made the call that it was 
better to not modify it, which would take hours and inject 
risk. She made a determination that it would better to change 
the crew rather than the suit.
    And just so you know, sir, we are making sure that in the 
future both genders are going to be accommodated 100 percent.
    Mr. Cohen. And let me close just by saying I've been very 
impressed with your presentation and feel comfortable about 
your being at NASA, and thank you for doing this. And I think 
we do need to get as quickly as we can I guess to the moon and 
et cetera, but just keep in your mind the whole time you're 
being told to speed it up--the O-rings.
    Mr. Bridenstine. Yes, sir.
    Mr. Cohen. You know, I think there was quite a bit of 
suspicion that the politics said get that flying regardless and 
the O-rings, so----
    Mr. Bridenstine. Absolutely.
    Mr. Cohen [continuing]. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Weber.
    Mr. Weber. Thank you, Madam. Jim, welcome back.
    Mr. Bridenstine. Thank you, great to be here.
    Mr. Weber. Glad to see you here.
    Mr. Bridenstine. Always.
    Mr. Weber. You went to Rice University, and of course----
    Mr. Bridenstine. Can you imagine?
    Mr. Weber. I know. Well, we'll welcome you back to Texas to 
spend lots of money any time. Of course that's where our great 
President JFK made his pronouncement, ``We choose to go to the 
moon not because it's easy but because it's hard.''
    And refresh my memory, Jim, if you don't mind me calling 
you that, how long did it take us to get to the moon at that 
point?
    Mr. Bridenstine. Let's see. He made the announcement in 
Congress in 1961. He made the announcement at Rice University 
in 1962, and we had boots on the moon on July 20, 1969.
    Mr. Weber. And I know there was people back then, to use 
that phrase, hot air that a lot of people thought that was hot 
air, but in reality we actually got that job done. It was 7 
years give or take, right, and would you characterize that--I 
know you're a little bit of a student of history. That was 
before your time. You were born in 1975?
    Mr. Bridenstine. I was born--yes, I'm the first NASA 
Administrator that was not alive when we had people on the 
moon.
    Mr. Weber. Well, you're doing a fine job.
    Mr. Bridenstine. Thank you.
    Mr. Weber. So that was 7 years. Would you characterize that 
as uncharted territory?
    Mr. Bridenstine. A little bit.
    Mr. Weber. A little bit, absolutely. Is it fair to say that 
we had less computing power back then than we currently have?
    Mr. Bridenstine. Slightly.
    Mr. Weber. A little bit? Did we have less funding back then 
than we have now?
    Mr. Bridenstine. Actually, no, we had a lot more funding.
    Mr. Weber. Is that right? So percentagewise we were good on 
funding?
    Mr. Bridenstine. In 2014 dollars at our peak it was----
    Mr. Weber. Right.
    Mr. Bridenstine [continuing]. It was about $40 billion 
annually was NASA's budget. And so today it would be, you know, 
about $20 billion.
    Mr. Weber. So you could say that that was a sign of what a 
priority it was for us.
    Mr. Bridenstine. It was a high priority.
    Mr. Weber. Absolutely it was high priority. Did we have 
less technology back then than we have today?
    Mr. Bridenstine. A lot less.
    Mr. Weber. A lot less. So some would say did we have less 
belief and faith that we could do it back then?
    Mr. Bridenstine. I guess you could make that argument.
    Mr. Weber. I know you weren't on the Earth here at that 
point, but I can tell you there was a lot of people thought 
we'd never get it done.
    In your being a student of history and being so involved in 
NASA, and I so appreciate you, on behalf of the 17,000 
employees, by the way, thank you for being here and what you're 
doing. Have you seen any other President announce four national 
space objectives?
    Mr. Bridenstine. Not in this way, not anywhere near this 
level of commitment with these really very impressive goals.
    Mr. Weber. Right, absolutely. So based on what we were just 
talking about, you know, less technology, less computing power, 
and a lot of people didn't know if we'd be able to make it, you 
have confidence that we can hit that 5 years?
    Mr. Bridenstine. I believe it can be done.
    Mr. Weber. Yes, I would agree with you and say that what we 
have right now in NASA, what a fine organization, if it is our 
priority, if we double down and get it done, we're going to get 
'er done. And I would argue that most of us on the Science 
Committee believe we are going to get it done too, so I thank 
you for that confidence.
    I want to say a couple things about it. There are a lot of 
good things that come out of NASA, and the discussion between 
you and Congresswoman Horn, you talked about a realm of 
possibility. I love that phrase. There's so many things that 
are within our realm of possibility, and NASA is leading the 
way on that. Don't you agree?
    Mr. Bridenstine. Agree completely.
    Mr. Weber. And I was listening to you all talk and I was 
also listening to you talk about the reduction gear that had 
been developed by NASA for airplanes where it's flat on the 
bottom so that when they land--explain that again.
    Mr. Bridenstine. Well, I was just looking at the nacelles 
of an engine not too long ago, and I noticed that it flattens 
out at the bottom. But the reason it was flattening out is 
because then the nacelles keep getting bigger and bigger----
    Mr. Weber. Yes.
    Mr. Bridenstine [continuing]. And the question is I didn't 
know why, but I learned that it's because of technology that 
NASA developed that--in conjunction with our commercial 
partners to improve the fuel efficiency and the environmental, 
you know, I guess mitigation efforts of our industry so that we 
can improve exports for the United States of America.
    Mr. Weber. Absolutely. I was glad to hear your exchange 
about the climate change thing. America ought to be in the 
leadership, we ought to be developing that technology, and NASA 
can lead the way----
    Mr. Bridenstine. And we have, yes.
    Mr. Weber [continuing]. On it. You bet you. Glad to hear 
that. And I'll just say this. We're looking at one space 
directive of four right now----
    Mr. Bridenstine. Yes.
    Mr. Weber [continuing]. Just one.
    Mr. Bridenstine. That's right.
    Mr. Weber. And I will say that it's visionary and, Madam 
Chair, if I can be so bold as to say you love hearing about 
STEM. This is going to help our STEM program because it is 
visionary. I will say it's invigorating. Ma'am?
    Chairwoman Johnson. We need STEM to get there.
    Mr. Weber. We do need STEM to get there. Thank you for 
pointing that out. It's invigorating. You're going to see 
Americans get behind this I believe much as they did in 1961 
and 1962. I hope we're going to see bipartisanship out of this. 
I think we're going to see America get behind it, youth and 
STEM as the Chairwoman so appropriately pointed out.
    Look, I would argue that this is about American 
exceptionalism, Administrator Bridenstine. You made the comment 
that America needs to lead the way, and I will say that's 
exactly what's going to happen. It's going to be American 
exceptionalism, it's going to help STEM, it's going to help 
inspire and especially in the STEM--back to STEM--and I can go 
any much further because I'm out of time. Do you see any reason 
why we shouldn't go forward with this?
    Mr. Bridenstine. I think we absolutely need to.
    Mr. Weber. I think you're on track, Jim. Thanks a lot.
    Mr. Bridenstine. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Beyer.
    Mr. Beyer. Madam Chair, thank you very much. And, 
Administrator, welcome.
    Mr. Bridenstine. Thank you.
    Mr. Beyer. You know, like many of my colleagues, I was 
disappointed to see that the President's budget request for 
2020 has many of the same cuts to NASA science, education, 
Earth science programs that it did last year even after 
Congress, you know, basically stood many of them up. 
Eliminating NASA's key STEM programs, PACE, CLARREO, they seem 
shortsighted and we need to continue investing in both our 
generation and climate research. But the appropriations process 
will work a lot of that out I know.
    I am very excited about off to the moon and off to Mars. 
This is really exciting stuff, but the tradeoff that I'm really 
concerned with is eliminating the highest-ranked priority of 
the decadal survey, which is WFIRST, you know, the Wide Field 
Infrared Survey Telescope.
    When Commissioner Bolden was here a couple of years ago--I 
think you were sitting on the Committee at the time--I asked 
him NASA's constancy of purpose, what should it be? Without 
hesitation, he said science. And the most fundamental and 
essential science we have right now is trying to figure out 
about dark energy, about what's happening in the origin of the 
universe with the infrared stuff, exoplanets, and I think 
initially--James Webb--that you're very committed to and WFIRST 
were planned together. They complement each other. So why does 
it make any sense to take WFIRST out of our budget? And isn't 
this going to jeopardize that project in the long run and 
diminish what we can get from James Webb?
    Mr. Bridenstine. It's a wonderful question, Congressman, 
and the way I would answer it is the James Webb Space Telescope 
is really our biggest flagship mission in the Astrophysics 
Division of the Science Mission Directorate, and we are 
committed to it. We have to be committed to it. By the time 
this is over, March 2021 we're going to launch it, it's--we're 
going to be $9 billion into that program.
    The challenge is--and this goes back to an earlier question 
about maintaining schedule and maintaining cost. When I first 
came in, that program was being pushed back and the cost was 
increasing. I had to come back to this Committee to get 
authorization to in fact go forward with this mission given the 
cost increase and the schedule delay.
    All of that being said, when we have a flagship mission 
like that that goes well beyond what we ever envisioned, it 
ends up impacting other missions within the Astrophysics 
Division. So I think, as we go forward, what we have to 
consider and what I'm hoping to work with you on is a balanced 
portfolio. We certainly want to do flagship missions, but when 
we have a flagship mission like this that goes over and then 
we're on the brink of starting another flagship mission, the 
only way to do that would be to cannibalize a lot of smaller-
class missions, medium-class missions, and when we do that 
activity, then we put a lot more risk on the entire 
Astrophysics Division. So we have to get smarter I think in the 
future of creating a more balanced portfolio.
    And you're absolutely right; the WFIRST is to work with 
James Webb. It's important that we get James Webb, you know, 
into space because ultimately, to the extent that we ever have 
WFIRST available to us, it needs to work in conjunction with 
James Webb. If James Webb doesn't launch, then WFIRST is not 
going to be as useful, although it would be tremendously 
valuable.
    Mr. Beyer. Well, please count on us to continue to press on 
WFIRST in the years to come----
    Mr. Bridenstine. Thank you.
    Mr. Beyer [continuing]. From the Science Committee.
    Mr. Bridenstine. You bet.
    Mr. Beyer. I'm sure you've seen the charts that show the 
percentage of our Federal budget or percentage of GDP that the 
NASA budget was back when we were going to the moon----
    Mr. Bridenstine. Yes.
    Mr. Beyer [continuing]. And now we're going to go again 
into Mars. You talked about the $40 billion in today's numbers, 
2014.
    Mr. Bridenstine. Yes.
    Mr. Beyer. Realistically, how do you expect to be able to 
do this when our NASA budget is a fraction of what it was 
before?
    Mr. Bridenstine. It's a great question. To start, we're 
making assessments right now as to--if we're going to land in 
2024, which we're going to do, the question is how do we 
achieve that? And we're going to be coming back with a budget 
amendment.
    No. 2, it's also true that we have more capabilities right 
now, and I think Congressman Weber hit on a lot of these. We 
have the miniaturization of electronics, we have reusable 
launch vehicles, we have commercial launch vehicles, we have a 
lot of the hardware that exists right now that didn't exist in 
1961 and in 1962 when President Kennedy made his famous 
speeches. All of those capabilities collude to say that we have 
an opportunity here, should we choose to accept it to, no 
kidding, get to the moon in 2024. That, you know, kind of 
vision is in front of us if we want to go after it, and I think 
we can achieve it given what is available right now. And don't 
get me wrong; it's not going to be without additional 
resources. But the key in order to get that of course is 
bipartisan consensus, and I understand that and I'm working 
toward that.
    Mr. Beyer. Great. Thank you very much.
    Mr. Bridenstine. You bet.
    Mr. Beyer. Madam Chair, I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Babin.
    Mr. Babin. Yes, ma'am, thank you very much, Madam Chair.
    Good to see you there, Mr. Administrator.
    Mr. Bridenstine. Good to see you.
    Mr. Babin. I appreciate all the great work you're doing.
    I proudly represent the Johnson Space Center in Houston, 
which manages the International Space Station, the Lunar 
Gateway program, and development of the next-generation 
spacesuits. And I understand that NASA is currently undergoing 
a study to evaluate the cost of returning to the moon, as we've 
been speaking about this morning. JSC stands ready to execute 
the Vice President's very exciting vision to return to the moon 
as soon as possible.
    So I wanted to ask you just a few questions. How much will 
it cost to complete the Lunar Gateway as proposed in the FY2020 
budget request?
    Mr. Bridenstine. So there's a number of issues. When we go 
to the moon in 2024, in order to achieve that, we have to 
accelerate the Gateway process. We need a power and propulsion 
element, and we need a habitation module. We need to be able to 
stage--forward stage if you will landing capabilities so when 
we launch humans in 2024 they have the tools necessary to get 
to the surface of the moon. So all of those right now are in 
flux, and it's important for me in the coming weeks to come 
back to you with what that cost is going to look like.
    Mr. Babin. OK. I got you. What impact will accelerating 
exploration of the moon have on the International Space 
Station?
    Mr. Bridenstine. It shouldn't have any impact on the 
International Space Station. Low-Earth orbit is still key to 
our mission, and it should have no impact.
    Mr. Babin. OK, great. How much will it cost to accelerate 
lunar lander development? I guess you'll have to get back with 
us on that as well?
    Mr. Bridenstine. Yes, sir, I'd appreciate that.
    Mr. Babin. OK. Our current spacesuits were developed in the 
late 1970s. Recent EVA (extravehicular activity) issues have 
highlighted NASA challenges with spacesuits. After losing suits 
in the Challenger, Columbia, and SpaceX cargo accidents, we 
only have a handful left in inventory. Over the last several 
years astronauts have even almost drowned in their spacesuits. 
The current spacesuits used on ISS are not capable of surface 
operations. NASA issued a report to Congress that laid out a 
plan for future spacesuit development. Will that plan be 
accelerated now that we are accelerating exploration of the 
moon's surface?
    Mr. Bridenstine. Sir, in order to get to the moon surface, 
we have to have new spacesuits.
    Mr. Babin. OK.
    Mr. Bridenstine. It's going to----
    Mr. Babin. It's a no-brainer.
    Mr. Bridenstine. Yes.
    Mr. Babin. Yes, OK. And what do you expect that cost to be? 
And will JSC maintain its role in spacesuit development?
    Mr. Bridenstine. The astronaut office at JSC will 
absolutely be involved, and their role is not going to change. 
Certainly the cost is something I'm going to have to get back 
to you on.
    Mr. Babin. OK. And, as I said earlier, the American public 
is excited by the Administration's enthusiasm for space 
exploration, and I certainly look forward to helping achieve 
all of these very, very exciting goals.
    And then I think I've got a little time left. Last month 
the Chairwoman and Ranking Member sent a letter to the 
Commissioners of the FCC (Federal Communications Commission) 
expressing concern about its proposed radio frequency spectrum 
auction. Based on feedback from the scientific community, their 
letter highlighted the need for interagency consultation among 
affected scientific agencies and the consideration of 
unintended consequences on areas such as weather forecasting 
before the auction could move forward. Can you explain to the 
Committee what NASA's role is during the interagency 
consultation process and concerns that you have about last 
month's auctions?
    Mr. Bridenstine. A great question. So NASA works with the 
NTIA (National Telecommunications and Information 
Administration), which is the government kind of arbiter of 
spectrum issues, and NTIA ultimately represents us to--
represents NASA to the rest of the government when it comes to, 
you know, spectrum auctions and that kind of thing.
    I will tell you that the 24-gigahertz spectrum that is 
being auctioned could have an impact on NASA's missions. When 
we talk about sensing the Earth in the 23-gigahertz range, what 
that enables us to do is characterize water vapor in the 
atmosphere. It enables us to characterize energy in the 
atmosphere. And why is that important? Because that's how we're 
able to make predictions.
    I say we; NASA is not responsible for the operational 
capabilities, but we are responsible for developing the 
satellites for NOAA that operates them operationally, and that 
part of the electromagnetic spectrum is necessary to make 
predictions as to where a hurricane is going to make landfall. 
So that has a big impact. If you can't make that prediction 
accurately, then you end up not evacuating the right people 
and/or you evacuate people that don't need to evacuate, which 
is a problem. And all those have impact.
    When it comes to Hurricane Sandy, for example, the United 
States of America believed it was going to be heading out to 
sea. The European model got it right. Well, it wasn't the 
European model; it was the European data. They had better data 
than we had from their systems. We want to make sure we get 
this right because it----
    Mr. Babin. Exactly.
    Mr. Bridenstine [continuing]. It's necessary life and 
property. It's also important to recognize when it comes to 
weather forecasting in general--again, you'd have to ask NOAA, 
but my consultations with them, we're talking about going back 
to 1978 levels of data. In other words, instead of a 7-day 
weather forecast, a 2- or 3-day weather forecast. Again, I'm 
not saying that they sold our spectrum. That didn't happen. But 
there is a risk that, depending on the power and the position 
of the cell towers in the 5G network, it could bleed over into 
our spectrum, and that's the risk. And the assessments that 
NASA has done in conjunction with NOAA have determined that 
there is a very high probability that we are going to lose a 
lot of data.
    Mr. Babin. A lot of challenges there, Mr. Administrator. I 
want to thank you for your hard work and your insight and 
experience, and I'm looking forward to helping achieve the 
goals that you've laid out for us today and still at the same 
time be a good steward of the taxpayers' funds.
    Mr. Bridenstine. Yes, sir.
    Mr. Babin. I yield back.
    Chairwoman Johnson. Thank you very much.
    Mr. Babin. Thank you. Ms. Stevens.
    Ms. Stevens. Thank you. Administrator Bridenstine, on March 
27, our House Speaker, in partnership with our fabulous 
Chairwoman, had a reception commemorating the 50th anniversary 
of landing on the moon in celebration with Women's History 
Month. It was held here on the Capitol and included the shining 
stars, the women in--mathematicians of America's space program. 
Were you invited to that reception?
    Mr. Bridenstine. I'm not 100 percent sure.
    Ms. Stevens. And so I take it you did not attend?
    Mr. Bridenstine. I did not attend.
    Ms. Stevens. My colleague asked about the spacesuits, and 
I'm not sure you're aware that Christina Hammond Koch, who is 
originally from Michigan where I represent, was intended to go 
on that----
    Mr. Weber. But she does live in Galveston.
    Ms. Stevens. That's true. But Michigan was really quite 
excited to have Ms. Koch go on the trip, and she was not able 
to. Is it correct that no woman has ever been to the moon, sir?
    Mr. Bridenstine. That is correct.
    Ms. Stevens. And this was a part of three spacewalks that 
were supposed to have taken place, and I was wondering if you 
could extrapolate on those missions and what the intentions of 
those missions were. And because the 29th has since come and 
gone, who went on that mission and what is expected to take 
place.
    Mr. Bridenstine. So you're talking about the spacewalks----
    Ms. Stevens. Yes.
    Mr. Bridenstine [continuing]. On the 29th? It was Christina 
Koch and it was Nick Hague, and they were replacing batteries 
on the International Space Station.
    Ms. Stevens. And did the mission take place?
    Mr. Bridenstine. It did.
    Ms. Stevens. OK, the walk?
    Mr. Bridenstine. Yes.
    Ms. Stevens. OK. And, Administrator Bridenstine, the budget 
proposal that we're discussing here today provides no funding 
for the Office of STEM Engagement, which includes the Minority 
University Research and Education Program, the National Space 
Grant, and on. These have been kind of longstanding 
initiatives, so just wondering, given what I was previously 
asking why the Administration--what the rationale was for 
cutting these programs and what you intend to do to support 
women in STEM and minorities in STEM?
    Mr. Bridenstine. Great question. So we support education 
initiatives for young people through the mission directorates 
at the agency. Earlier I was talking about one that I attended 
not too long ago, which was a FIRST Robotics mission--or a 
FIRST Robotics Competition that I participated in. We support 
it with engineers, we support it with scientists. We encourage 
young people to get involved in the STEM fields. We do all of 
those things. We do the things--and, by the way, the programs 
that you identified are currently funded, and we are using 
those programs. They are part of the President's co-STEM 
Initiative for STEM education, and we're continuing to advance 
those very important initiatives.
    It is also true that we want to direct resources where they 
can have the most impact for the agency and the most impact for 
the country, and in the budget request we made a determination 
that some of these other missions for that activity are better. 
And, in fact, if you talk to the folks that are building robots 
for Mars right now, they participated in FIRST Robotics, so 
that shows a direct return. And the folks are doing FIRST 
Robotics now are interested in building robots for Mars or 
Pluto or Ultima Thule or wherever we may be going next, Bennu, 
so there's a lot of different opportunities there.
    Ms. Stevens. Well, you're obviously a significant leader, 
and we are so grateful for your service and your leadership of 
NASA. I know it was not easy during the shutdown with 95 
percent of your workforce either not working or working without 
pay.
    And I'd like to invite you to exercise your leadership and 
join the Chairwoman and I on occasion to sit down with STEM 
education groups. Black Girls CODE is certainly very 
significant. Later today, I'm going to meet with a group called 
Tech Lady Mafia that has done a lot for women in the sciences. 
And we continue to encourage you to reconsider slashing those 
programs and also would like to encourage you to support women 
in STEM and get that first woman on the moon for us, sir. Thank 
you.
    Mr. Bridenstine. Yes, ma'am, and I will say that in the 
speech that the Vice President gave last week he was very clear 
that the next man and the first woman on the moon will both be 
Americans, and we look forward to that day. And I commit to you 
now that if you invite me to an event, I'll be happy to come.
    Ms. Stevens. Thank you.
    Mr. Bridenstine. You bet.
    Chairwoman Johnson. Thank you very much. Ms. Gonzalez-
Colon.
    Ms. Gonzalez-Colon. Thank you, Madam Chairwoman and Ranking 
Member Lucas, for actually welcoming me here. I'm honored to be 
part of this distinguished Committee for the first time. I 
think I'm the first Puerto Rican on this Committee, so I'm 
really excited to serve along with my colleagues in this 
Science, Space, and Technology Committee.
    I look forward to representing a lot of the community in 
Puerto Rico. You may know that 42 percent of our economy runs 
on pharmaceutical, manufacturing, electronic devices, and the 
bedrock for that is actually research and scientific 
investigations.
    On the other hand, we do have the Arecibo Observatory, 
which was the biggest radio telescope in the world for 50 
years, second now just to China. And mainly been funded by the 
National Science Foundation and NASA through their program 
grants.
    So having said that, my questions will be, first, I do 
notice that this budget in terms of the science area is $677 
million more than the one in Fiscal Year 2017, but I do have 
the concern that some of the programs, specifically the 
research in the area for space grants are supposed to be 
finished. So my first question will be specifically on that 
regard. How do we know that that kind of program that works 
with more than 150 network affiliates between colleges, 
universities, museums, and other consortia being restructured 
and dedication activities and potentially canceling the 
National Space Grant College and Fellowship program? I do know 
they need to economize and I would love you to elaborate on 
those programs.
    Mr. Bridenstine. Sure. So NASA is very committed to STEM 
education. We are very committed to achieving, you know, better 
outcomes for the United States of America when it comes to 
producing the next-generation scientist, technologist, 
engineer, and mathematician. And we do that through the various 
mission directorates, and we've found a lot of success in doing 
that, and we've made a determination through the budget request 
that the way we can make the most impact is in that way.
    And as far as Arecibo, I will say we're planning to spend 
about $4.5 million with Arecibo this year and ramping up by 
2022 about $5 million annually with Arecibo, which is a 
capability that we think is important and we currently utilize.
    Ms. Gonzalez-Colon. I'm really glad to hear that. As you 
may be aware, there's a lot of astonishing accomplishment of 
that observatory for the last 50, 60 years, among them, many 
Pulitzer and even scientists that won the Nobel Prize for their 
research in that center.
    My second question will be in terms of, you know, Puerto 
Rico was devastated by both hurricanes. Everybody knows that. 
Did NASA receive all the allocated funds for the recovery of 
all the NASA facilities in the Nation, including the tornadoes?
    Mr. Bridenstine. I will have to get back to you on that. 
I'm not 100 percent sure, but I'll--if I could take it for the 
record, I'll make sure I get you a correct answer.
    Ms. Gonzalez-Colon. Thank you. As you may be aware that 
STEM technology and research is something that I will be 
pushing forward, so any way that we can help out and even work 
to establish more opportunities for kids in college to 
participate in those programs, I will be more than happy to 
work with. Happy to say that I yield back the balance of my 
time.
    Mr. Bridenstine. Thank you, Congresswoman.
    Chairwoman Johnson. Thank you very much. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chair, and thank you, 
Administrator, for joining us here today. I know a lot of my 
colleagues have already talked about the zeroing out of the 
STEM engagement in the President's proposed budget, and I know 
I echo those concerns. And in particular I want to talk a 
little bit about the Space Grant program----
    Mr. Bridenstine. OK.
    Ms. Wexton [continuing]. Because I represent Virginia, and 
in Virginia the program is able to leverage the funds that it 
gets from NASA to give high school students hands-on experience 
at Langley Research Center to work on real-life problems 
alongside NASA scientists. And I'm sure you're familiar with 
this program.
    Mr. Bridenstine. Yes.
    Ms. Wexton. And I'm very fortunate because I got some 
first-hand experience because my nephew was a participant a 
couple summers ago, and he's now an engineering student at 
Virginia Tech. And because of his experience, he's joined the 
Design-Build-Fly team, and they're competing nationally----
    Mr. Bridenstine. That's awesome.
    Ms. Wexton. So it's--you know, it really does have an 
impact on those students.
    Mr. Bridenstine. It does.
    Ms. Wexton. Now, you said in your response to Ms. Stevens' 
questions that you felt NASA believed that you can make just as 
much of an impact in other areas with other programs, is that 
correct?
    Mr. Bridenstine. So we--so as far as the universities go, 
we do a lot of missions with a lot of universities. And then 
universities actually are very good at engaging young folks in 
the programs that they're developing. And so we do a lot of 
that activity even outside the Space Grant program, but 
certainly I understand your point.
    Ms. Wexton. And so you're liaising mostly now with the 
universities and you don't have an equivalent program for 
highschoolers to this Space Grant program at this time?
    Mr. Bridenstine. Well, we--not equivalent to the Space 
Grant, that we do activities with high schools all the time 
when it relates to, like I mentioned, the robotics--the FIRST 
Robotics Competition is a high school competition. NASA spends 
about $4.5 million annually invested in that program, and we 
also provide scientists and engineers as mentors for the high 
school students. So we do these kind of activities within the 
mission directorates.
    Ms. Wexton. But they wouldn't necessarily be a week-long 
structured program at NASA Langley or something like that?
    Mr. Bridenstine. In some cases we have activities similar 
to that. The FIRST Robotics Competition is multiple days long. 
But it's not the Space Grant program.
    Ms. Wexton. Very good. Switching gears a little bit, we 
often talk about satellites in Earth science, but there are 
other new opportunities for the development of long-duration, 
high-altitude robotic aircraft that can fly into the 
stratosphere and accomplish a broad range of goals at a much 
lower cost.
    Mr. Bridenstine. OK.
    Ms. Wexton. And one example of that is the solar-powered 
Odysseus aircraft, which is developed by Aurora Flight 
Sciences, which happens to be a constituent business of mine.
    Mr. Bridenstine. OK.
    Ms. Wexton. Are you familiar with that aircraft----
    Mr. Bridenstine. I'm familiar with Aurora. I'm not familiar 
with the aircraft itself.
    Ms. Wexton. OK. Are you familiar with the solar-powered 
aircraft that are--that would fly up into the stratosphere----
    Mr. Bridenstine. Yes.
    Ms. Wexton [continuing]. And perform a bunch of functions?
    Mr. Bridenstine. Yes.
    Ms. Wexton. So I'm encouraged by the fact that it can serve 
as a platform to support a bunch of NASA's Earth science 
missions like monitoring sea-level rise, understanding drought 
conditions on crops, looking at flooding and severe storms, and 
they can do all that at a lower cost than many of the satellite 
technologies that are out there now. So can you talk about how 
the Science Mission Directorate plans to use these new long-
duration robotic aircraft capabilities to support Earth science 
mission objectives?
    Mr. Bridenstine. So we in fact do currently operate 
unmanned aerial vehicles or uncrewed aerial vehicles for the 
purpose of science. We also use crewed vehicles within 
aviation. As far as that specific aircraft, I would be thrilled 
if you gave me a chance to specifically understand what it does 
and how we are either A) using it or maybe even have an ability 
to use it in the future.
    Ms. Wexton. Well, I can just tell you----
    Mr. Bridenstine. Yes.
    Ms. Wexton [continuing]. For example, it's solar-powered, 
so it doesn't have to come down for refueling and you can just 
park it up and set it to go in like a circular motion, circular 
pattern. And with the right telecommunications payload, for 
example, it could have gone a long way to helping restore 
telecommunications to the island of Puerto Rico----
    Mr. Bridenstine. Oh, sure.
    Ms. Wexton [continuing]. After the storm. So, you know, 
there are many different possibilities but also for Earth 
science so----
    Mr. Bridenstine. Yes, ma'am.
    Ms. Wexton [continuing]. Is NASA exploring Earth science 
capability with unmanned aircraft?
    Mr. Bridenstine. Absolutely. Well, the answer is yes. As 
far as specific missions, I'm not sure. I know we do all kinds 
of missions with crewed aircraft. As far as what we do 
specifically for Earth science with uncrewed aircraft I'll have 
to get back to you.
    Ms. Wexton. OK. Thank you very much. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Brooks.
    Mr. Brooks. Thank you, Madam Chairman.
    Mr. Bridenstine, clearly orbital debris in space is a key 
challenge with moon to Mars and International Space Station, a 
number of different space endeavors. I noticed your public 
quotes concerning India's testing of an anti-satellite weapon. 
What can NASA do to try to minimize the amount of space debris 
either sponsoring or advocating treaties----
    Mr. Bridenstine. Yes.
    Mr. Brooks [continuing]. Or is there some cleanup 
mechanism? But what can we do to reduce the danger----
    Mr. Bridenstine. Yes.
    Mr. Brooks [continuing]. To astronauts from space debris?
    Mr. Bridenstine. It's an important issue. NASA has a role 
to play under the President's Space Policy Directive-3. We 
developed technology, we develop capabilities that ultimately--
under Space Policy Directive 3, the Commerce Department would 
be responsible for space situational awareness and space 
traffic management. NASA has a role to play in technology 
development and capability development.
    I would also say we have a very different role to play, 
which is a role of--you know, we are a tool of national power. 
We are a tool of soft power, and I think it's important for 
people around the world to understand that intentionally 
creating orbital debris that increases the risk to astronauts 
is not compatible with human spaceflight. And so if NASA can 
play a role there encouraging people not to engage in these 
kind of activities, that's an area I think where we can benefit 
the world.
    Mr. Brooks. Was there any prior notice from India to the 
United States concerning their planned anti-satellite test and 
subsequent creation of this potentially dangerous space debris?
    Mr. Bridenstine. If there was, I was not aware of it.
    Mr. Brooks. Have there been any communications with India, 
either as military or space agency subsequent to the test?
    Mr. Bridenstine. I sent a letter to the Indian Space 
Research Organization indicating that their activities were not 
compatible with human spaceflight.
    Mr. Brooks. Now, we have various agreements with India 
where we cooperate on space endeavors, do we not?
    Mr. Bridenstine. We do.
    Mr. Brooks. Is there any risk to those cooperative efforts 
because of India's increase in the quantity of space debris?
    Mr. Bridenstine. Say that one more time.
    Mr. Brooks. Sure. We had these cooperative agreements.
    Mr. Bridenstine. Oh----
    Mr. Brooks. India has done something that we're not real 
happy about because it puts our space assets and astronauts at 
risk. Is there any potential reduction of cooperative 
agreements with India as a result of their increasing space 
debris that is dangerous to our space efforts?
    Mr. Bridenstine. So they cooperative engagements, no, and 
I'll tell you why. I think it would be--we don't want to do 
anything asymmetric. If they're trying to go to the moon and 
it's in both of our interests for them to achieve that 
objective, then we want to continue to partner with them on 
that effort. And that--is that--is that--you know, so the--we 
have not changed any of our cooperative agreements based on 
that incident.
    Mr. Brooks. Entirely different subject, where does the 
United States stand among nations when it comes to astronautics 
technology? And what policies do we need to ensure our 
country's status as a leader in aeronautics and aviation?
    Mr. Bridenstine. So what technologies do we need?
    Mr. Brooks. Where does the United States stand among 
nations when it comes to aeronautics technology? I'll----
    Mr. Bridenstine. So----
    Mr. Brooks. Sorry, I gave you two questions----
    Mr. Bridenstine. OK.
    Mr. Brooks [continuing]. Back to back. We'll just focus on 
that first one.
    Mr. Bridenstine. Aeronautics, we--as an agency, we're in 
the lead in a lot of different ways. As a country, we're in the 
lead in a lot of different ways. And I think the two big--
actually, a number of big things. Low Boom Flight Demonstrator 
we want to prove that we can fly across the United States 
supersonically without creating a sonic crack that ultimately 
could be disruptive to infrastructure and people on the ground. 
That capability, once achieved, I think is going to be 
transformative for human spaceflight within--or human flight 
within the atmosphere.
    When we talk about the X-57 program, we're talking about an 
all-electric aircraft capable of carrying humans and crew. If 
it can drive down the cost by 60 percent of fuel, then that 
could be transformative and enable airplanes to fly, you know, 
I guess productively for-profit in regions of the country right 
now that are underserved because the costs are too high. So 
driving down cost increases access to aviation capabilities. 
That's the X-57 program within the Aeronautics Research Mission 
Directorate.
    And finally, I think urban air mobility and integrating 
unmanned aerial systems into the national airspace system is a 
critical capability that will be transformative and in fact 
it's necessary for us to be the world leader in that endeavor 
just for competitive reasons around the world.
    Mr. Brooks. Thank you, Jim. I appreciate your answers.
    Mr. Bridenstine. You bet.
    Chairwoman Johnson. Thank you very much. Mr. Lamb.
    Mr. Lamb. Welcome back, Mr. Bridenstine. I know it's been a 
long morning, so I won't keep it too long. But you've gotten a 
lot of questions about the cuts to the STEM office and from 
what I can tell you've suggested that someone at NASA or some 
group of people with the Administration has made a decision 
that you can more effectively reach out and encourage young 
people through the directorates than through the STEM office. 
Do I have that right?
    Mr. Bridenstine. That's correct.
    Mr. Lamb. Who made that decision?
    Mr. Bridenstine. It's--we go through an entire process as 
an agency, and it bubbles up from the bottom, and then we get, 
you know, kind of all the different parts of the--all the 
different agencies make their cases, all the different parts of 
the agency make their cases, then we have to make decisions.
    Mr. Lamb. Well, who made the case that the $110 million for 
the Office of STEM was not worth spending this year? Who made 
that case?
    Mr. Bridenstine. Ultimately, the budget request is NASA's 
budget request, so I will own that.
    Mr. Lamb. OK. In my State of Pennsylvania there's a 
Pennsylvania Space Grant Consortium, and with the money that 
they were getting from the NASA Space Grant, they were giving 
$4,000 scholarships to students who were either juniors or 
seniors at any accredited Pennsylvania college or university if 
they were enrolled in science, technology, engineering, or 
math. And it was specifically encouraged that women, 
underrepresented minorities, and persons with disabilities 
apply. All three of those groups are probably people that NASA 
would benefit from having more of, right?
    Mr. Bridenstine. Yes.
    Mr. Lamb. I mean, that's an issue we have across our 
government.
    Mr. Bridenstine. Absolutely.
    Mr. Lamb. Wouldn't you agree?
    Mr. Bridenstine. Yes.
    Mr. Lamb. OK. So do any of the activities in the 
directorates give out $4,000 scholarships to students in 
college?
    Mr. Bridenstine. Not that I know of.
    Mr. Lamb. OK. So if your budget, as you've presented it, 
goes into effect, there won't be more students like this in my 
State getting the $4,000 scholarships from NASA as they 
currently exist, right?
    Mr. Bridenstine. That's correct. To--but I want to make 
sure, sir, you understand we will follow the law, and we are 
following the law. And currently those programs are the law, 
and we will continue doing that.
    Mr. Lamb. But I'm talking about in future cases as a result 
of the budget you're requesting, that program would no longer 
exist.
    Mr. Bridenstine. Correct.
    Mr. Lamb. OK. And you'd agree, I mean, there's a difference 
between giving somebody $4,000 in tuition and loaning your 
scientist to a FIRST Robotics Competition, right? I mean, 
there's a real difference in the life of the recipient between 
those two things?
    Mr. Bridenstine. There is. On the FIRST Robotics front the 
reality is a lot of those--they--that's not a cheap endeavor, 
and so NASA does provide direct financial resources out of the 
Science Mission Directorate to the tune of about $4.5 million 
for those activities. And it enables children, high-schoolers, 
young folks, it enables them to participate in ways that they 
otherwise could not participate.
    Mr. Lamb. No, and I commend you for that. I've met with the 
FIRST teams in my district. It's an exciting program. You know, 
the $4.5 million pales in comparison to the 110, and then, 
interestingly, the 110 really pales in comparison to the $20-
some billion overall NASA budget, so it seems to me a little 
may be penny wise and pound foolish to eliminate $100 million 
out of a $21 billion budget. I mean, do you think that $110 
million is going to be the difference between whether we get to 
Mars or whether we get to the moon or not----
    Mr. Bridenstine. No, I----
    Mr. Lamb. --$110 million?
    Mr. Bridenstine. I absolutely do not.
    Mr. Lamb. No. So, I mean, kids are hanging on by a thread 
in college, especially in Pennsylvania. Pennsylvania is an 
expensive place to go to college. Our State colleges are 
financially extremely stressed. Four thousand dollars could be 
the difference between staying and dropping out, especially for 
someone who comes from a background where their family is not 
wealthy, which is a lot of people, so I just really would 
encourage you to think this one through. And I know the request 
has been made. Congress is going to do what it's going to do, 
but this means a lot to people in my State, and in future years 
I hope it gets a little bit more respect and thought from this 
Administration.
    Mr. Bridenstine. I understand.
    Mr. Lamb. Thank you. I yield back, Madam Chairwoman.
    Chairwoman Johnson. Thank you very much. Mr. Sherman.
    Mr. Sherman. OK. I know others have had a similar line of 
question about SLS and Orion. You said that SLS, Orion, and the 
ground systems are the backbone of our Nation's deep space 
exploration program starting at the moon and beyond.
    Mr. Bridenstine. Yes.
    Mr. Sherman. My questions concern the budget, which seem to 
contradict your statement. After years of delay in part due to 
insufficient requests and continuing resolutions, SLS, Orion, 
and their respective ground systems have made significant 
strides, strides which will bring unprecedented exploration 
capacity to the Nation and really the rest of the world. The 
engines are ready, capsules are being tested, boosters are 
ready, pads and infrastructure near completion. There should be 
a roll of music there. And then the Trump Administration 
delivers a budget that aims to halt and slow this progress. Is 
there a rocket and crew capsule that exists with the same or 
greater capacities as SLS and Orion?
    Mr. Bridenstine. No, sir. That is--as you correctly said at 
the beginning and I still believe 100 percent that that is the 
backbone of our ability to get to the moon. It's the backbone 
of our deep space exploration capabilities. What we did in the 
budget request is we delayed for a period of time the 
exploration, upper stage specifically because we've been having 
challenges with the core stage. We have to get the core stage 
complete, and we can fly the core stage with what we call an 
interim cryogenic propulsion stage and an Orion crew capsule 
with the European Service Module, and we can take that in fact 
to the moon and we can take it to the moon with humans. The 
exploration upper stage is absolutely important for the future, 
but given where we are right now with SLS, we wanted to focus 
all the resources specifically on the core stage.
    Mr. Sherman. But you seem also to be seeking money for a 
rival approach that may not yield a launcher or a lander. What 
alternatives to SLS and Orion are you seeking funding for?
    Mr. Bridenstine. So right now we did a 2-week study on 
commercial alternatives to the SLS, and what we found is that 
none of those commercial alternatives are going to help us save 
on cost or improve the schedule.
    Mr. Sherman. So it was a 2-week study?
    Mr. Bridenstine. We did a 2-week study. We learned--I 
learned a number of weeks ago that the SLS was going to be 
delayed again, and I made a determination that we need to find 
an alternative approach. We looked at all of the commercial 
options, heavy-lift rockets. Going to the moon is extremely 
hard. It's a long distance, and the mass that we need to send 
there is a lot. And so the SLS and the Orion crew capsule are 
the tools by which to achieve that objective. Commercial 
solutions in the future could be viable. In fact, they will 
probably be necessary, but at this point SLS and Orion are the 
best approaches to stay on schedule.
    Mr. Sherman. So contrary to my understanding of the budget 
request--and I may not be reading it with as keen an eye as 
yours, you're full speed ahead on SLS and Orion, but the upper 
stage of SLS, the so-called EUS, you're going slow on only for 
technical and not budgetary reasons?
    Mr. Bridenstine. We made a determination that we needed to 
focus on the core stage, and until that core stage is complete, 
the exploration upper stage ultimately doesn't have any value 
because it needs that core stage to be effective.
    Mr. Sherman. But why not go in parallel? Why do you need--I 
mean, you're developing capsules in parallel with rocket 
engines, suits in parallel with capsules. Why is focusing on 
the first stage causing you to halt efforts on the second 
stage?
    Mr. Bridenstine. Ultimately because, you, we have--we're 
making determinations based on the constraints of the budget.
    Mr. Sherman. So how much does this slow down the process? 
You got to first get the first stage right, and then you'll 
wake up and say, oh, now we got to do the second stage.
    Mr. Bridenstine. It is----
    Mr. Sherman. What delays are we talking about here?
    Mr. Bridenstine. So it's very possible that next year 
you'll see the exploration upper stage in the budget request. 
It's very possible given that we now have an agenda to get to 
the moon in 2024, in the coming days you might see that as part 
of the architecture to accelerate the moon mission with an 
amendment to the budget request.
    Mr. Sherman. So we may see an amendment to the budget 
request regarding the first and second stage?
    Mr. Bridenstine. It is possible, yes, sir.
    Mr. Sherman. I yield back.
    Chairwoman Johnson. Thank you very much. I now recognize 
Ms. Hill.
    Ms. Hill. Thank you, Madam Chair.
    Mr. Bridenstine, NASA's workforce has experienced 
significant aging in the last 25 years. According to the Space 
Foundation's The Space Report in 1993, 34 percent of NASA 
employees were under 35 years old and 15 percent were older 
than 54. By 2018 these numbers have flipped at just 15 percent 
of NASA's workforce is under 35 years old while 35 percent are 
older than 54, and we're seeing this play out in my district. 
Do you have any concerns about the aging of the NASA workforce, 
and what do you plan to do about it?
    Mr. Bridenstine. Yes, ma'am, 100 percent. We have a bow 
wave of retirements that are on the horizon. We're working very 
hard to make sure when that happens that we have people that 
can fill in and take those roles at every level of leadership 
in the NASA organization. So in order to achieve that, we are 
working with universities, with missions, and other 
capabilities to make sure that when people graduate from 
college they not only have the academic capabilities but they 
also have hands-on experience actually developing missions for 
NASA. So that's one way that we're working to make sure that 
we're filling in for the retirements. We're also working 
through internship programs and in fact middle-career kind of 
programs to get folks focused on maybe joining NASA.
    Ms. Hill. Thank you. I guess that kind of relates to Mr. 
Lamb's question of how the reduction in scholarships might be 
impacting that.
    Mr. Bridenstine. Yes. Again, so we work with universities 
in a whole host of different ways through the mission 
directorates, and we intend to keep doing that. And they're a 
key piece of how we're going to fill this retirement wave that 
we see coming.
    Ms. Hill. Do you have like real projections laid out in 
terms of how the impact is going to look, and is there a way 
that we can be involved in that process or informed----
    Mr. Bridenstine. We do. I'd be happy to get with our HR 
folks and sit down with you and talk about it in detail.
    Ms. Hill. Thank you. And then the second question is 
according to the Space Foundation's The Space Report between 
2011 and 2017 the average NASA salary decreased 10 percent in 
real terms. We also heard--I have many NASA employees in my 
district who told me about the impacts that the shutdown had on 
morale and on people seeking other outside employment, 
especially when we have massive aerospace industry in our 
district that's outside of the government. And are you 
concerned about losing and not attracting highly skilled 
scientific and technical personnel because of those decreasing 
salaries and competition from the private sector and 
instability in government pay?
    Mr. Bridenstine. This is a real issue for NASA, and we're 
dealing with it every day, especially in our--a lot of our 
centers are in expensive areas. Ames, for example, is a very 
expensive place to live out in the San Francisco Bay area. It's 
where a lot of talent is, so it's a good place for us to be. We 
can take advantage of all that talent. At the same time our 
employees make a government paycheck, which is not competitive 
with the area in which they live.
    The folks that work at NASA do it because they absolutely 
love it, they're committed to what we do, it's unique in the 
world and everybody knows it and they want to be a part of it. 
But certainly we are working through some really significant 
challenges when it comes to how we compensate our workforce.
    Ms. Hill. Yes, I'd be interested in working with your HR 
folks on that, too, and looking at different compensation 
mechanisms.
    Mr. Bridenstine. Absolutely.
    Ms. Hill. And then, lastly, Vice President Pence said that 
if NASA can't land on the moon by 2024, we need to change the 
organization, not the mission. So what does the changing the 
organization mean to you? And do you see this as a threat to 
breaking apart NASA or otherwise drastically reorganizing the 
way that civil space is implemented in the Executive Branch?
    Mr. Bridenstine. No, I don't see it as that. I mean, I 
think--I know exactly what he's talking about. He's talking 
about the fact that, you know, there has been maybe a sense 
that since we've been--it's been a long time since we've flown 
humans into space. The retirement of the Space Shuttle was in 
2011. The gap was not supposed to be this long. So the question 
is, is there complacency? What he said was we are fighting 
complacency, so he wants to get us moving faster.
    I think that there is a big difference--and going back to 
the organizational structure, there's a big difference between 
operations, which is what we have on the International Space 
Station right now, commercial resupply, commercial crew, and 
operations on the International Space Station. There's that 
part of NASA, and then there is development. The brand-new 
things, the big rocket to get to the moon, the Gateway, lunar 
landers, all of those capabilities don't yet exist and yet soon 
will. That's development. That's very different than 
operations. So what we're working on now is a plan where we 
would actually have a mission directorate focused on 
development and a mission directorate focused on operations. We 
don't call it the development mission directorate because 
development is not a mission. We call it the Moon to Mars 
Mission Directorate, and so we're working through right now the 
process by which we could have that online in short order to 
help us achieve a faster lunar landing.
    Ms. Hill. OK. I can appreciate that since my grandfather 
was an engineer on the Space Shuttle and the Apollo series.
    Mr. Bridenstine. Oh, wow.
    Ms. Hill. Thank you.
    Mr. Bridenstine. You bet.
    Chairwoman Johnson. Thank you very much. And before we 
close the hearing, I want to thank our witness very much for 
your long, steadfast testimony this morning and to remind--you 
can now be dismissed. And I want the remaining Committee 
Members to understand that they--oh, I dismissed you a little 
too early.
    Mr. Bridenstine. OK.
    Chairwoman Johnson. OK. Come right in. Mr. Waltz is 
recognized.
    Mr. Bridenstine. I almost got away.
    Mr. Waltz. You did. You did, Mr. Bridenstine. Apologies. 
And it's nice to actually occupy your office, so thank you 
for----
    Mr. Bridenstine. 216 Cannon?
    Mr. Waltz. 216 Cannon.
    Mr. Bridenstine. It's the best.
    Mr. Waltz. Thank you for keeping that warm for me. And I 
represent the district that starts just north of the Cape and 
heads up to Jacksonville with Embry-Riddle----
    Mr. Bridenstine. Oh, good----
    Mr. Waltz [continuing]. At the center there, and so 
obviously space is in our DNA, and we're just so excited and 
thrilled with the growth of commercial space in particular, but 
just also the resurgence of what's going on.
    I just left Secretary Wilson and General Goldfein in the 
House Armed Services and talking about the future of space 
there from the military side.
    So, Administrator, as you know, the Kennedy Space Center in 
Florida is the site of a world-capable, just really 
incredible--of launching astronauts into deep space, just an 
incredible capability. Can you just talk to me about the Vice 
President's directive----
    Mr. Bridenstine. Yes.
    Mr. Waltz [continuing]. To get to the moon? And apologies 
if you've already gone over this, but----
    Mr. Bridenstine. Oh, no, it's----
    Mr. Waltz [continuing]. But it's critical to I think growth 
in Florida and where we're going with it and particularly how 
you plan to do it within the timeline----
    Mr. Bridenstine. Right.
    Mr. Waltz [continuing]. Given your budget request and the 
perceived at least disconnects there.
    Mr. Bridenstine. Absolutely. So going back to--I think it 
was February 2017 the President signed Space Policy Directive 
1. In that space policy directive he said we're going to go to 
the moon. We're going to go sustainably. In other words, this 
time when we go, we're actually going to stay. It doesn't mean 
we're going to have a permanent human presence on the surface 
of the moon necessarily, but what it means is we're going to 
have permanent access to the surface of the moon with humans 
but also with landers and robots and rovers. But we're going to 
go, we're going to go sustainably, we're going to go with 
commercial partners, we're going to go with international 
partners, and we're going to retire risk, prove capability, and 
then we're going to take that to Mars.
    So that I think was the foundation of what the Vice 
President announced last week. We put together a plan to 
achieve that objective given the budget constraints, and we 
came up with a 2028 landing date on the surface of the moon. 
The President and the Vice President determined that they 
wanted to go faster than that, so they gave us an objective to 
meet that deadline of 2024, which of course puts--we're going 
to probably need different resources than we had previously 
anticipated, but I will tell you the agency NASA is 
exceptionally excited about this opportunity. I would imagine 
down at Kennedy where you are there's a lot of really excited 
folks right now and I think at the same time not just a level 
of excitement but people know that we can achieve it. We know 
that we can achieve it.
    And so the goal here is to go to the moon and go quickly 
but also go sustainably, and so that's what we're working on 
right now to develop what that plan would look like. All of the 
elements are there from the plan that we had previously from 
2028 landing. All of the elements are there. Some of those 
elements we need to start moving forward, which means we're 
going to need a different set of resources. And so in the 
next--in the coming weeks I'm going to talk to this Committee 
and others about what those resources might look like.
    Mr. Waltz. Thank you. And in the time I have remaining, the 
budget proposes the termination of NASA's Office of Education 
and zeroes out the education account, so within the Office of 
Education is the Aerospace Research and Career Development 
program that houses the National Space Grant College and 
Fellowship program. That's incredibly important to Embry-
Riddle, along with a number of other universities that are 
focused on STEM but particularly with Embry-Riddle.
    We educate world-class STEM talent. I think the race into 
space in the 21st century space race is really an icebreaker 
for pulling the United States back into its world leadership 
role in STEM. How does the President's budget request impact 
the Space Grant program?
    Mr. Bridenstine. So the Space Grant program specifically 
would not be funded in the President's budget request. It is 
true that when we think about how we go about inspiring that 
next generation, we do it through STEM activities. We're 
looking at doing that through the mission directorates, which 
we have a number of programs through the various mission 
directorates to accomplish that end State, and so, again, 
prioritizing what's the biggest impact for the agency, what's 
the biggest impact for the country, we determined that it was 
best to not fund the Space Grant program. But at the end of the 
day right now it is funded. We are following the law, and we 
are committed to following the law.
    Mr. Waltz. Madam Chairman, thank you so much. I appreciate 
your forbearance. Thank you. Thank you, Administrator.
    Mr. Bridenstine. Thank you.
    Chairwoman Johnson. Thank you very much. And, again, thanks 
to our witness. You've been an excellent witness. We appreciate 
you being here. And I think that is our last questioner, so the 
record will remain open for 2 weeks for additional statements 
from the Members and for any additional questions the Committee 
may ask the witness. And the witness now is excused.
    Mr. Bridenstine. Thank you, ma'am.
    Chairwoman Johnson. The meeting is adjourned.
    [Whereupon, at 12:44 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                                
               
                                 [all]
</pre></body></html>
